Title  : Number 09--NSF OIG Semiannual Report to the Congresss
Type   : Report
NSF Org: OIG
Date   : August 28, 1995
File   : oig09





NATIONAL SCIENCE FOUNDATION



SEMIANNUAL REPORT TO THE CONGRESS


Number 9



April 1, 1993 - September 30, 1993


Office of Inspector General




LETTER TO THE NATIONAL SCIENCE BOARD AND THE CONGRESS


This report describes our activities and accomplishments for the
second half of FY 1993.  Section 5 of the Inspector General Act of
1978, as amended, requires that the National Science Board transmit
this report to the Congress within 30 days of its receipt along
with any comments the Board may wish to make.

In this reporting period, we continued to investigate allegations
of misconduct in science.  In addition to our ongoing investigation
of these allegations, we continued to participate in discussions
about the definition of misconduct in science, the role of intent
in misconduct cases, and the Department of Health and Human
Services' decision to publish the identities of individuals found
to have committed misconduct.  Our investigators and lawyers
conducted a fraud investigation that resulted in the governmentwide
suspension of $1.4 million in awards.  Our auditors completed a
2-year pilot program intended to evaluate the effectiveness of
audit resources used to conduct reviews at universities under the
Single Audit Act.  They also reviewed NSF's $18 million, 5-year
contract with the University of Alaska and completed a financial
and compliance audit of the contract that provides logistical and
management support for the Antarctic program.  An inspection of
performance under eight NSF grants at a private, nonprofit research
institution's plant biology department was also completed.

We appreciate the National Science Board's continued support,
encouragement, and guidance.  We welcome NSF's new director, Dr.
Neal Lane, and look forward to working with him and his management
team to ensure the success of the agency's mission to advance
research, education, and related activities in science and
engineering.



Linda G. Sundro
Inspector General
October 31, 1993



EXECUTIVE SUMMARY


FINANCIAL AUDITS

Completed reviews at 16 universities to determine whether, and to
what extent, our audit resources should be used to conduct audits
of NSF awards at universities where other federal agencies have
"single audit" responsibility.  We identified over $1.2 million in
questioned costs; the audits conducted by other federal agencies
identified about $200,000.  In addition, our audits disclosed
numerous compliance and internal control findings and questioned
costs that we believe should have been found by the OMB-required
audits.

Reviewed the $18 million, 5-year contract with the University of
Alaska, Fairbanks, to determine whether accurate and should be used
when the contract is renegotiated in October 1993.  The indirect
cost rate did not equitably allocate indirect costs to the
contract.  We estimated that if the follow-on contract uses the
current indirect cost rate, $687,500 in excess indirect costs will
be charged to the new contract.

Received a formal ruling from OMB on the proper classification of
an NSF trust fund.  Our FY 1991 audit identified three funds that
were not reported in the agency's financial statement even though
they had characteristics similar to the funds in the Donations
Account.  The Inspector General believed that one account should be
included in the trust fund, and NSF's Chief Financial Officer
disagreed.  OMB agreed with the Inspector General that the account
should be reclassified as a trust fund in NSF's Donations Account.
The remaining two accounts were determined to be the fiduciary
responsibility of the Department of State.

INVESTIGATIONS

Recovered $435,356.

Conducted investigations of two small, high-technology business
that submitted false statements and false claims and forged
documents to receive over $1.5 million in duplicate funding under
the Small Business Innovation Research program.  Because of this
action, awards totaling $1.4 million were suspended.

Investigated an allegation that a university professor had
submitted false statements to qualify for an NSF Young Investigator
award.

MISCONDUCT IN SCIENCE

Discussed four policy issues on misconduct in science.  Two are on
the definition of misconduct in science.  The other two discussions
are on the role of intent in misconduct in cases and the Department
of Health and Human Services' new policy of publicly identifying
all persons against whom it has made misconduct findings.  OIG also
conducted an investigation that concluded that a college engaged in
misconduct.

INSPECTIONS AND EVALUATIONS

Conducted an inspection at a private, nonprofit research
institution's department of plant biology to review performance and
compliance under eight NSF grants.  We did not find any significant
deficiencies in the financial, administrative, or performance
aspects of these grants.



CONTENTS


REPORTING REQUIREMENTS

AUDITS

INVESTIGATIONS

OVERSIGHT

LEGAL

SIGNIFICANT AUDIT RECOMMENDATIONS
FROM PREVIOUS SEMIANNUAL REPORTS

REPORTS WITH OUTSTANDING MANAGEMENT DECISIONS

AGENCY REFUSAL TO PROVIDE INFORMATION OR ASSISTANCE

SIGNIFICANT MANAGEMENT DECISIONS THAT WERE REVISED

INSPECTOR GENERAL'S DISAGREEMENT WITH
SIGNIFICANT MANAGEMENT DECISIONS

LIST OF REPORTS

STATISTICAL TABLE OF INSPECTOR GENERAL
ISSUED REPORTS WITH QUESTIONED COSTS

INSPECTOR GENERAL REPORTS WITH RECOMMENDATIONS
THAT FUNDS BE PUT TO BETTER USE




ACRONYMS


ASA            Antarctic Support Associates

BIO            Directorate for Biological Sciences

CFO            Chief Financial Officer

CPA            Certified Public Accounting

CTIO           Cerro Tololo Interamerican Observatory

DoD            Department of Defense

FOIA           Freedom of Information Act

GRESE          Grants for Research and Education
               in Science and Engineering

GSA            General Services Administration

HHS            Department of Health and Human Services

NASA           National Aeronautics and Space Administration

NIH            National Institutes of Health

OGC            Office of General Counsel

OGE            Office of Government Ethics

OMB            Office of Management and Budget

OSTP           Office of Science and Technology Policy

PAM            Proposal and Award Manual

PHS            Public Health Service

PI             Principal Investigator

PICO           Polar Ice Coring Office

REU            Research Experiences for Undergraduates

RFP            Request for Proposals

SBA            Small Business Administration

SBIR           Small Business Innovation Research

UCAR           University Corporation for Atmospheric Research




REPORTING REQUIREMENTS


The table cross-references the reporting requirements prescribed by
the Inspector General Act of 1978, as amended, to the specific
pages in the report where they are addressed.


Section 4(a)(2)          Review of Legislation and Regulations

Section 5(a)(1)          Significant Problems, Abuses, and
                         Deficiencies

Section 5(a)(2)          Recommendations With Respect to
                         Significant Problems, Abuses, and
                         Deficiencies

Section 5(a)(3)          Prior Significant Recommendations on Which
                         Corrective Action Has Not Been Completed

Section 5(a)(4)          Matters Referred to Prosecutive
                         Authorities

Section 5(a)(5)          Summary of Instances Where Information Was
                         Refused

Section 5(a)(6)          List of Audit Reports

Section 5(a)(7)          Summary of Each Particularly Significant
                         Report

Section 5(a)(8)          Statistical Table Showing Number of
                         Reports and Dollar Value of Questioned
                         Costs

Section 5(a)(9)          Statistical Table Showing Number of
                         Reports and Dollar Value of
                         Recommendations That Funds Be
                         Put To Better Use

Section 5(a)(10)         Summary of Each Audit Issued Before This
                         Reporting Period for Which No Management
                         Decision Was Made by the End of the
                         Reporting Period

Section 5(a)(11)         Significant Revised Management Decisions

Section 5(a)(12)         Significant Management Decisions With
                         Which the Inspector General Disagrees



AUDITS


The Office of Audit is responsible for auditing grants, contracts,
and cooperative agreements funded by NSF's programs and operations
and for ensuring that reviews of financial, administrative, and
programmatic aspects of activities are performed.  The Office
evaluates internal controls, reviews data processing systems,
examines allegations of improper actions by NSF staff, all follows
up on the implementation of recommendations included in audit
reports.

All audit reports processed by the Office of Inspector General are
referred to NSF management for action or information.  The Office
of Audit advises and assists NSF in resoling audit recommendations.

The Office of Audit advises and assists NSF in resolving audit
recommendations.  The Office of Audit also assists NSF by acting as
a liaison between NSF and audit groups from the private sector and
other federal agencies by arranging for special reviews, obtaining
information, and providing technical advice.



AUDIT ACTIVITIES

NSF's budget has increased 42.2 percent from $1.9 billion in 1989
to $2.7 billion in 1993. To appropriately use these funds and
maintain our audit standards, we established a strategic plan for
audit work conducted in 1993 and 1994. The plan consists of reviews
of the three programs that have experienced the most growth. These
are: (1) programs at universities including science and engineering
centers, (2) the Antarctic program, and (3) science and engineering
education programs.

OIG Completes 2-Year Pilot Program

In response to the Senate Subcommittee on Government Affairs' 1991
request, we initiated a 2-year pilot program to determine whether,
and to what extent, our audit resources should be used to conduct
audits of NSF awards at universities where other federal agencies
have "single audit" responsibility. We also determined whether
procedural findings and questioned costs revealed areas in which
the administration of a specific NSF program, or overall management
of an NSF program, could be improved. While implementing our 2-year
program, we completed reviews at 16 universities (8 during our
first year and 8 during this reporting period).

We conducted financial and compliance audits of costs claimed at 16
universities. In accordance with Office of Management and Budget
(OMB) Circulars A-110, A-128, and A-133, NSF management relies on
university audits conducted by independent accountants, as well as
state and cognizant federal auditors, to ensure that grantees are
properly using award funds and complying with applicable laws and
regulations. During our review, we found that the results of audits
conducted under the OMB guidelines had been issued for 12 of the 16
universities in our sample. Based on our analysis of the reports
issued on these 12 universities, we determined that audits
conducted by independent accountants at universities did not always
identify findings that were useful to NSF's oversight of these
universities. The audit reports for six of the universities
contained findings that NSF would not find useful in its oversight.
Of the audits conducted at the remaining six universities, NSF had
responsibility to follow up on findings contained in two reports.
The four remaining reports contained findings that were forwarded
to the cognizant agency for resolution. The 16 audits that we
conducted identified over $1.2 million in questioned costs.

The audits conducted by other federal agencies identified  about
$200,000 in questioned costs. As a result of our analysis of the
audits at the 12 universities, we believe the quality of audit
coverage varies among state auditors and the certified public
accounting (CPA) firms conducting the audits for the universities.
For example, one report identified substantive compliance and
internal control findings; however, other reports did not identify
any compliance or internal control findings or questioned costs.
Our audits developed numerous compliance and internal control
findings and questioned costs that we believe should have been
identified by the OMB-required audits.

We believe our university audits have been an efficient and
effective way of reviewing the expenditure of NSF funds and are a
productive means of augmenting the audit efforts of other
independent, state, and federal auditors at colleges and
universities. Based on the findings discussed in our reports and
not disclosed by the independent, state, and federal auditors, we
do not believe the OMB-required audits have adequately safeguarded
NSF's interests. We plan to continue  reviews at universities by
participating in the financial audit component of the inspections
program, by conducting reviews at science and technology centers as
well as engineering research centers, and building upon audits
conducted by other auditors to ensure that proper oversight has
been provided to safeguard NSF's interests.

The following paragraphs discuss the most common findings in our
university audits.

          We noted deficiencies in the personnel activity reporting
          systems at 12 of the 16 institutions.  These deficiencies
          included activity reports that (1) did not exist, (2)
          supported a salary amount that was different than the
          amount charged to the award, (3) were signed before the
          activity occurred, and (4) were not completed on time.
          Also, there was no independent internal review performed
          of the personnel activity reporting systems.  Only one of
          the audits conducted to meet OMB requirements disclosed
          problems with the personnel activity reporting system.

          We noted deficiencies in the procurement process at 10 of
          the 16 institutions.  These institutions did not conduct
          price or cost analyses, document sole source
          justifications, or screen for available equipment to
          prevent duplicative purchases.  Only two of the audits
          conducted to meet the OMB requirements disclosed problems
          with the procurement process.

          We noted deficiencies in property procedures at 6 of the
          16 institutions.  These deficiencies included the lack of
          an adequate physical inventory and property files or
          records.  Only three of the audits disclosed problems
          with the property procedures.

          We questioned costs at 11 universities because indirect
          costs, such as office supplies, magazine subscriptions,
          office furniture, telephone costs, and administrative
          labor costs, were claimed as direct costs.  None of the
          audits conducted to meet the OMB requirements questioned
          costs related to indirect costs.  Our audits also
          identified several practices that we believe could be
          changed to improve internal controls.  For example, we
          found that although six institutions could demonstrate
          that they had met NSF cost sharing requirements, there
          were no formal systems in place to track cost sharing
          data.  We also found that project budgets and budget
          justifications lacked sufficient details to facilitate
          adequate review, oversight, and control of spending under
          the projects.

Indirect Costs Reviewed
at the University of Alaska

In November 1988, NSF signed an $18 million, 5-year contract with
the University of Alaska, Fairbanks, to operate the Polar Ice
Coring Office (PICO), which was established as an office at the
university. PICO plans and organizes ice core drilling projects in
the world's polar and high-altitude regions. PICO also designs
various types of equipment that are used in the drilling
operations.

Each year, the University and its cognizant federal agency, the
Office of Naval Research, negotiate the indirect cost rates that
the University uses on federal grants and contracts. For the PICO
contract, the University and NSF agreed to use an indirect cost
rate that was different from the rate negotiated between the
University and the Office of Naval Research. The rate agreed to by
the University and NSF was established to more accurately allocate
indirect costs to the PICO contract.

We audited the PICO contract to determine whether the indirect cost
rates were accurate and should be used when a new contract is
negotiated in October 1993. As part of our audit, we reviewed the
University's indirect costs to determine whether these costs
supported the NSF program and should be included in the

PICO indirect cost rate. We also reviewed the approach used to
allocate the indirect costs to determine whether the approach was
equitable to NSF.

The indirect cost rate in place did not equitably allocate indirect
costs to the PICO contract. This rate included excess research
administration costs and allocated other costs for depreciation and
use allowances, operations and maintenance, and library facilities
that did not support the NSF contract. We estimated that if the
University receives the follow-on contract with the current
indirect cost rate, $687,500 in excess indirect costs will be
charged to the new contract.

As a result of our recommendation to eliminate excess research
administration costs and other costs that do not relate to the NSF
project, the University submitted a revised indirect cost proposal.
The University also proposed to segregate the PICO indirect costs
from the other on-campus indirect costs. We believe this rate will
more accurately allocate indirect costs to the PICO contract.
Therefore, we recommended that  NSF's contracting officer accept
the newly proposed rate for contract negotiations.

Antarctic Program

NSF is responsible for the overall management of U.S. operations in
Antarctica.  The Antarctic program supports research and provides
a U.S. presence in Antarctica under the auspices of the Antarctic
Treaty. Although NSF staff members provide the guidance, oversight,
and funding for the Antarctic operations, a for-profit company
under contract with NSF provides the actual management and
operational support for the Antarctic program. During this
reporting period, we completed a financial and compliance audit of
the contract that provides logistical and management support for
the Antarctic program.

    Contract Audit. NSF awarded a cost-plus-award-fee
contract to Antarctic Support Associates (ASA). ASA is a joint
venture company that was formed by two firms (one in California and
one in Massachusetts) to bid and work on the Antarctic contract.
NSF awarded the contract to ASA to fund research activities and
operations as well as to maintain facilities and equipment at sites
in Antarctica. ASA is also responsible for leasing and managing the
two ships  that are used in the Antarctic program. The major sites
supported in Antarctica are the Palmer, McMurdo, and South Pole
stations. ASA also maintains three facilities that are used as
staging areas and shipping ports for the supplies and equipment
needed in support and research activities.  The 6-year operational
contract began on April 1, 1990, and expires on March 31, 1996. The
overall contract included a 6-month, phase-in period (October 1,
1989, through March 31, 1990) to allow for the transfer of
operations from the contractor that previously held the program
contract to ASA. The total estimated contract cost, including base
and award fees, for the 6.5-year contract period was approximately
$251 million.

    Financial and Compliance Audit. Our financial and
compliance audit covered October 1, 1989, through December 31,
1992. As of that date, NSF had allotted approximately $193 million
for the contract. Total expenditures through the end of the audit
period were approximately $169 million, which included expenditures
related to safety, environment, and health projects.

As part of our audit, we reviewed previous findings and
recommendations from a joint OIG/NSF review, and ASA's two parent
companies' audit reports. From over 40 prior findings and
recommendations, we found only a few instances where we felt the
contractor did not take corrective actions.

For example, ASA had not (1) established an internal audit
function, (2) obtained financial statement audits from independent
accounting firms, (3) established adequate payroll processing
procedures, or (4) taken cash discounts on purchases when they were
available.

Our current audit questioned over $500,000 because inadequate, and
in some cases no, documentation was provided to support claimed
costs related to equipment, travel, and other services;
reimbursements for travel in personal automobiles were not always
justified; documentation was not maintained justifying the use of
foreign-flag air carriers; and payments made by ASA for services
rendered by its two parent companies were not supported by adequate
documentation or a contractual agreement to be used to determine
the reasonableness of the billed costs.

We also noted the following compliance and internal control
deficiencies:  NSF's contracting officer was not notified before
changes totaling $148,000 were made to the construction of a
research vessel with ice-breaking capabilities.  Formal policies
and procedures related to the use of foreign-flag air carriers and
cash drawdowns were not developed.  The contract required that the
ice-breaking vessel have liability insurance totaling $11 million.
ASA's insurance policy was for only $10 million. Appropriate
approvals for the change were not received.

We presented these findings to the contractor. Because the
contractor needed to obtain a great deal of documentation to the
support the questioned costs, resolution is not expected until
calendar year 1994.

In addition to the financial and compliance audit, NSF asked that
we audit the cost proposal for the maintenance contract that Air
New Zealand holds for aircraft servicing Antarctica. We received
the proposal for review and began our on-site work in New Zealand
in September 1993. The new contract will be negotiated in
November 1993.


*****************************************************************

Questioned Cost

A cost the Office of Inspector General has questioned because of an
alleged violation of law, regulations, contract, grant, cooperative
agreement, or document governing the expenditure of funds; such
cost is not supported by adequate documentation; or the expenditure
of funds for the intended purpose is unnecessary or unreasonable.

*****************************************************************



Science and Engineering Education

In Semiannual Report No. 8 (page 3), we reported that Congress had
increased the funding for NSF's programs in science and engineering
education from $171 million in FY 1989 to $487 million in FY 1993.
With this additional funding, NSF was able to expand its
education-related programs and provide awards to many new grantees.
These new grantees often did not have experience working under
federal laws and regulations. During this reporting period, we
attempted to identify the organizations that were at risk and
schedule audits of their programs.

Since 1989, about 2,145 organizations have received financial
support from NSF's science and engineering education programs.
About 1,865 of these organizations were under the cognizance of
other federal agencies that review audits conducted under OMB
Circular A-128 or A-133 guidelines. Of the remaining 280
institutions, 150 non-academic, state, and local government
organizations were audited within the past 5 years, and we arranged
many of these audits. We screened the remaining 130 organizations
to determine whether they had active grants, there was significant
funding to make a review cost-effective, and their federally funded
activities had been audited. As a result, 29 organizations that had
never had their NSF programs reviewed were scheduled for audit.

While we were scheduling audits of these organizations, we found
that, although few of the grantees were anxious to be audited, one
company that had received a grant from the Division of Elementary,
Secondary, and Information Education was so averse to being audited
that it returned the $300,950 grant rather than submit to an audit.

We have completed seven audits in this area. Five of those audits
are highlighted here. Resolution of these audits is in-process.

     NSF awarded a $407,206 grant to a nonprofit organization
     to develop and implement a curriculum and professional
     development model to up-grade the Cleveland public
     schools' seventh and eighth grade mathematic curriculums.
     The grantee claimed $358,617, and we questioned $197,293.
     We recommended that the grantee develop accounting
     policies and procedures and develop controls within its
     financial management system.

     NSF awarded a $450,780 grant to a commercial company to
     support production of the first "IMAX" film to survey the
     universe. The grantee claimed $88,459, and we questioned
     $80,591. Questioned costs related to salary expenses that
     were not supported by time/attendance or activity reports
     and unsupported subcontract costs. We recommended that
     the grantee get NSF's approval before placing any
     subcontract/order. Several requests by the auditor for
     comments from the grantee yielded no response.

     NSF awarded a $392,820 grant to a nonprofit organization
     to support the production of an educational film. The
     organization claimed $186,460, and we questioned $55,319.
     Consulting costs were not supported by written
     agreements, and inadequate invoices and labor costs were
     mistakenly charged to the grant. Cash advances were not
     deposited into an interest-bearing account, and
     documentation was not maintained to show how exchange
     rates were used to translate foreign expenditures. We
     made recommendations to correct these weaknesses.

     NSF awarded two grants totaling $312,612 to a nonprofit
     corporation to support the development and enhancement of
     the mathematic and scientific skills of precollege
     Hispanic students. The grantee claimed $254,044, and we
     questioned $33,596. The questioned costs resulted from
     insufficient documentation to support claimed salaries
     and material costs as well as supplies and costs claimed
     that exceeded recorded costs. We also found that the
     grantee did not maintain an approved indirect cost
     allocation plan, and federal cash transaction reports
     were not properly completed. In addition, we found that
     the grantee did not maintain adequate procedures for the
     competitive bidding for purchases over $10,000.

     NSF awarded over $1.3 million to a not-for-profit museum
     to support construction of a new exhibit. The grantee
     claimed $150,777, and we questioned $29,389. NSF awarded
     the museum funding with the expectation that the museum
     would share approximately $3.7 million of the project's
     costs. The museum had developed potential sources of cost
     sharing, but at the time of our audit, there was a
     significant gap between the funding received and the
     funding the project needed. We also found that excessive
     indirect costs were provided under the award. The
     following compliance and internal control deficiencies
     were also noted during our review: an audit was not
     conducted in accordance with federal guidelines, federal
     cash on-hand exceeded the project's operating needs, and
     the grantee's financial management system did not provide
     for a comparison of budgeted amounts with actual outlays.


Chief Financial
Officers Act

To comply with the Chief Financial Officers (CFO) Act of 1990, NSF
submits a Donations Account Financial Statement to OMB by March 31
of each year, the Office of Inspector General (OIG) audits the
financial statements and submits a report to the agency head by
June 30, and the CFO submits an annual report that incorporates the
annual financial statement and the auditor's reports to OMB by
August 31 of each year.  Our FY 1991 audit identified one North
Atlantic Treaty Organization and two Department of State funds that
were not reported in the financial statements even though they had
characteristics similar to the funds in the Donations Account.
After extensive review, the CFO and OIG agreed that the Department
of State funds were the fiduciary responsibility of the Department
of State and should not be included in NSF's Donations Account
financial statements. However, the Inspector General and the CFO
could not agree on the proper classification of the North Atlantic
Treaty Organization fund or whether it should have been included in
NSF's financial statements. The Inspector General believed that the
North Atlantic Treaty Organization fund should be classified as a
Trust Fund. The CFO disagreed.

In July 1992, a decision was made to request a formal ruling from
OMB on the proper classification of the fund. As a result of this
request, the Department of the Treasury and OMB's Energy and
Science Division advised NSF that the $4-million North Atlantic
Treaty Organization fund should be reclassified as a trust fund.
Since the decision to reclassify the account was not made until May
1993 and OMB did not have the authority to issue waivers for FY
1992, OMB's Energy and Science Division  decided, and OMB's Office
of Financial Management concurred, that the North Atlantic Treaty
Organization fund would be included in the Donations Account
Financial Statements and audited beginning in FY 1993.

During this reporting period, we audited the FY 1992 Donations
Account Financial Statement. We also tested the FY 1991 information
that NSF included in the FY 1992 statements for comparative
purposes, even though we had conducted a complete audit of FY 1991
information in 1992. The FY 1991 information was amended on the FY
1992 statement to include administrative costs and was reformatted
to conform with the revised financial statement formats that OMB
required in FY 1992. Our audit identified underestimated liability,
expense, and advance entries that materially affected the FY 1992
financial statements. The CFO amended the statements in response to
our findings. On June 30, 1993, we issued the Auditor's Report on
the Principal Statements, the Auditor's Report on Internal
Controls, and the Auditor's Report on Compliance. In addition, we
issued a Management Letter to the Acting Director of NSF.

Based on information in our Management Letter, NSF agreed to
(1) compare estimated accrued liabilities and expenses with actual
liabilities and expenses for material differences before compiling
the financial statements, (2) properly reverse expenditure accrual
entries and review the general ledger for unusual general ledger
entries and account balances, (3) record reversing entries in the
same fiscal year that the adjusting entries are recorded,
(4) establish a system to collect and report accurate financial and
program performance data, (5) report total receipts and expenses
for the U.S.-Saudi Arabia Joint Commission Program in future
financial statements, and (6) document the procedures used to
compile the financial statements.

OMB revised the reporting requirements for future statements and
audits. Our next audit must be submitted to OMB by March 1, 1994.
We have already begun our testing and review of 1993 account
activity.


Audit of Grant Proposal
Processing Time

    Review of Processing Times in the Grants Division. As
part of our internal control reviews at NSF, we evaluated the time
required to process grants and agreements in NSF's grants division.
Our review covered details of activities conducted in FYs 1989
through 1992.

NSF's policy stipulates that award activities in the grants
division should not exceed 30 calendar days. We reviewed the
staffing levels in the grants division for FYs 1989 through 1992
and analyzed those awards whose processing times exceeded the
30-day goal. We did this because staffing levels and averages of
grant processing times could distort conclusions and obscure
problems.

In general, we found that the grants division was processing awards
faster. The number of employees assigned to the grants division
varied: in 1985 and 1992, there were 78 and 67 staff members,
respectively. The number of awards processed increased 42.6 percent
from 1985 to 1992. (See Table 1 for detailed statistics.) On
average, it took the grants division 26 days to process an award in
1985 and 20 days to process an award in 1992. We think the
reduction in processing time, despite the increase in the number of
awards processed and a decrease in the number of staff members
processing awards, is commendable.

_________________________________________________________________

Table 1:  Grants Division Statistics
_________________________________________________________________


                                        Number of
Fiscal              Number of           Grants
Years               Employees           Awarded
_________________________________________________________________


1985                78                  13,785
1986                72                  13,516
1987                67                  14,903
1988                67                  15,254
1989                66                  16,545
1990                67                  17,369
1991                58                  18,571
1992                67                  19,657
_________________________________________________________________



In reviewing the grants where processing times exceeded 30 days, we
found that there were usually valid reasons why proposals took more
than 30 days to process. The most common of these reasons was that
the grants division had to pursue and resolve the following issues
before the awards were made: (1) the proposals were from
institutions that were new to NSF and therefore NSF did not have a
working history with them, (2) the institution had provided old or
invalid indirect cost rate information, and (3) the institution had
included incorrect budget information in the proposal.  We believe
that these issues could be addressed faster if the grants division
established an early warning system that identifies new
institutions requiring added background work.

    Reviews of Processing Times in Program Offices.  We surveyed
the proposal processing times in the program offices to ensure that
they were promptly processing proposals. We made this survey with
an eye toward identifying issues for a future, more detailed review
of the early stages of the proposal processing system.

NSF's processing policy is that all receipt and review activities
be completed within 6 months of NSF's receipt of the proposal. (The
6-month period does not include the 30 days that the grants
division is given to process proposals.)

The program offices met the 6-month goal about 55 percent of the
time in 1989, 51 percent of the time in 1990, and 45 percent of the
time in 1991 and 1992.

There was at least a 10-day lapse between the date the program
officer recommended the award and the date the office head or
division director concurred with that recommendation in 46 and 48
percent of the cases reviewed in 1991 and 1992, respectively. Also,
for 12 percent of approved proposals, it took longer than 5 days to
enter approved proposals into the grant system after the division
director concurred with the recommendation for award.

NSF needs to have continuous training for program officers and
other employees involved in processing proposals. Because of the
large turnover of program managers within NSF, either through
short-term rotators or through intergovernmental personnel act
assignees, program managers do not always seem to know or remember
the guidelines for processing a proposal or what can be discussed
with the person who submitted the proposal. Grantees may believe
that NSF grant processing does not meet its time goals because
program managers tell the potential grantees that their proposals
have been recommended for award. This may cause the proposer to
expect the imminent announcement of the grant's award when, in
fact, there are a number of actions still necessary under the award
system before the award is actually issued. There are also
instances (depending on funding availability, management concerns,
and proposer financial condition) where awards will not ultimately
be made, in spite of the program recommendation.

We found that the grants division was generally timely in its
processing of awards.  However, our preliminary findings suggest
that there are proposal processing issues that should be addressed
in a future review of the program offices. As a result, we plan to
conduct a detailed review of proposal processing in program offices
during the upcoming year.

Cerro Tololo
Interamerican Observatory

As part of our audit coverage of the National Optical Astronomy
Observatories, we visited the Cerro Tololo Interamerican
Observatory (CTIO) near La Serena, Chile.  The Association of
Universities for Research in Astronomy, which manages CTIO,
received a $158,543,300, 5-year cooperative agreement from NSF to
support the National Optical Astronomy Observatories. The agreement
began on October 1, 1989, and will expire on September 30, 1994.

CTIO is one of three observing sites that makes up the National
Optical Astronomy Observatories. The other two sites are: Kitt Peak
National Observatory near Tucson, Arizona, and Sunspot Solar
Observatory near Cloudcroft, New Mexico. In 1987, CTIO identified
and tracked the supernova. In 1992, CTIO sponsored 219 observing
programs that involved 387 scientists who published 152 papers
based on observations made at the CTIO facilities.

We reviewed the CTIO operations and about $3.7 million in claimed
costs under the cooperative agreement for the fiscal  year ended
September 30, 1992. We evaluated the adequacy of the internal
control structure, assessed the effectiveness of the administrative
operations, and determined the degree of compliance with CTIO's
policies and procedures as well as federal laws and regulations.
We found questionable costs charged to the cooperative agreement
and made recommendations to decrease operational costs and improve
the administrative support of CTIO, which would result in a $48,000
savings to NSF.  These savings would result from more accurate
revenue forecasts of cafeteria and housing services and indirect
costs associated with an automobile rental business being operated
by the contractor on CTIO's facilities. If CTIO included the
additional revenue in its budget, it would have requested
approximately $32,000 a year less from NSF. The allocation of
approximately $16,000 of indirect costs to the automobile rental
business would also have reduced NSF's costs.

We also recommended improvements in the operational procedures and
policies that, if implemented, should result in additional savings.
These recommendations included: (1) lowering the $257,000 average
balance of NSF cash held in the contractor's Chilean bank account,
(2) seeking more competition to help ensure that the most
reasonable price was obtained for expenditures charged to the
cooperative agreement, and (3) reconciling property and financial
records to help identify and track equipment purchased under the
cooperative agreement.

OTHER SIGNIFICANT AUDIT WORK

When selecting programs for audit, we review the (1) grantee's
previous business relationship with the federal government, (2)
type of organization that the grantee operates (that is, nonprofit,
educational institution, non-for-profit, or for-profit), (3)
requirements for self audit through OMB Circular A-128 or A-133
audits, (4) history of audits received from the grantee, (5)
unaudited funding, (6) results of any prior reviews of the
grantee's accounting and management systems, and (7) concerns that
may have been expressed by the NSF program and grant offices.

As a result of this review process types of grantees continue to be
identified for audits:  grantees under the Small Business
Innovation Research (SBIR) program; independent laboratories, and
nonprofit organizations; and contractors that support NSF
operations and programs.  Below are detailed discussions of our
reviews of these three types of grantees and contractors.

SBIR Grantees

SBIR grantees are likely to be selected for audit because (1) they
are for-profit organizations that are not required to have audits
of their operations by either OMB Circular A-128 or A-133, (2) they
are usually small organizations that have had limited dealings with
the federal government and therefore do not have a history of
review by federal auditors, and (3) their federal awards are
relatively small so they probably do not have on-site accounting
and management reviews performed before they receive federal
awards.  In addition, SBIR grantees are often audited because
previous audits have identified deficiencies in SBIR grantees.
Summaries of three of our audits of SBIR grantees follow.

          NSF awarded a $249,400 grant to a for-profit corporation
          to support the development of a prototype system for
          molding reinforced plastic composites into commercial
          products.  The grantee claimed $104,358, and we
          questioned $23,613.  Cash advances received from NSF were
          not deposited in interest-bearing accounts, there was a
          lack of segregation of duties in the cash disbursement
          system, and the grantee did not prepare a manual
          detailing its accounting procedures.  We recommended that
          (1) the grantee refund the questioned costs to NSF and
          deposit all federal funds in an interest-bearing account
          and (2) the grantee establish accounting procedures
          requiring that cash disbursement responsibilities be
          segregated and that the grantee prepare an accounting
          manual describing procedures for handling accounting
          transactions.  Resolution of these recommendations is
          expected shortly.

          NSF awarded a for-profit organization a $224,137 grant to
          support the research and development of a set of
          statistical procedures.  The grantee claimed $224,137,
          and we questioned $11,288.  The questioned costs resulted
          from unapproved salaries charged to the award,
          unauthorized travel expenses, and salaries paid in excess
          of the allowable rate.  We recommended that (1) the
          grantee establish personnel files for all employees to
          ensure that authorized pay rates and other pertinent
          personnel and payroll information are maintained, (2) the
          organization maintain property records that meet federal
          requirements, and (3) the organization obtain written
          approval from NSF before charging unauthorized project
          expenses to the NSF award.  The grantee did not comment
          on the draft report.  The NSF grants officer is working
          to resolve the findings.

          NSF awarded a $248,239 grant to a for-profit corporation
          to fund research in fruit maturation and ripening.  The
          grantee claimed $83,122, and we questioned $44,932.
          Questioned costs related to unsupported salary and fringe
          benefit costs, purchase of equipment that was not a
          budget line item, and indirect costs claimed that
          exceeded the allowable amount.  We recommended that the
          grantee produce documentation to support the questioned
          costs or refund NSF the $44,932 in questioned costs.  The
          grantee provided documentation that the auditor
          considered inadequate.  The NSF grants officer will
          decide whether the grantee's documentation and arguments
          are acceptable.



Nonprofit Organizations
and Laboratories

The second group identified for audit is independent laboratories
and other nonprofit organizations that have not been audited by
federal agencies over an extended period of time, have not complied
with the OMB Circulars for audit, or have been receiving small
grants over many years that have resulted in a significant
unaudited federal funding balance.

          NSF awarded 10 grants totaling $3,580,355 to a private,
          nonprofit corporation to assist in the exchange of
          information among research and educational institutions
          through high-speed data communications techniques and to
          promote collaborative research between private industry
          and universities. The grantee claimed about $2.8 million,
          and we questioned $19,372. Questioned costs related to
          overhead expenses that were claimed as direct costs,
          grant revenues that exceeded grant expenditures, salaries
          and wages claimed that exceeded the actual amount paid to
          employees, and lack of documentation to support other
          direct costs claimed. The grantee concurred with our
          findings  and agreed to comply with our recommendations.

          NSF awarded eight grants totaling $1.2 million to a
          hospital to support health care services as well as
          research and education for the scientific community. The
          grantee claimed $745,609, and we questioned $16,911.
          Questioned costs related to duplicate costs claimed for
          equipment rental, indirect costs questioned as a result
          of questioned equipment rental costs, equipment charged
          to the grant that was not substantiated by supporting
          documentation, and a discount given on an equipment
          purchase that was not credited to the grant.  The auditee
          concurred with the questioned costs and indicated that
          the errors will be corrected on the  December 31, 1992,
          Federal Cash Transactions Report.

          NSF awarded five grants totaling $309,576 to a
          not-for-profit organization to support research
          facilities and programs. The grantee claimed $309,104,
          and we questioned $15,495. Questioned costs resulted from
          insufficient documentation to support costs claimed,
          unallowable costs, and interest earned on advanced funds
          that was not remitted to the government. We also found
          that final progress reports were not promptly submitted
          to NSF.  Accounting functions were not segregated, and
          procedures were not maintained for awarding contracts
          totaling $10,000 or more. We recommended that the grantee
          maintain documentation and monitor costs charged to NSF
          awards. By the end of the reporting period, the findings
          and recommendations had not been resolved.


Contracts That Support NSF
Operations and Programs

A third type of required review is the audit of contracts that are
issued for support of NSF operations of programs.  We are required
by the Federal Acquisition Requirements to review these contracts.
A summary of the most significant of these reviews follows.

NSF awarded a $581,765 contract to a firm for technical support of
NSF computer systems.  We questioned $11,970 because indirect cost
rates included excessive compensation and office expenses.  The
questioned costs represent an increase in the president of the
firm's salary from calendar year 1990 to 1991.  We believe that a
93-percent increase in the president's compensation was not
reasonable and therefore not allocable to federal awards.  We also
questioned office expenses for furniture and equipment that were
allocated to the overhead and general and administrative cost
pools.  In our opinion, the costs of the furniture and equipment
should have been charged through depreciation rather than all at
one time.  Contracting officers at NSF and the federal cognizant
agency responsible for negotiating governmentwide indirect rates
will be working together to arrive at an equitable solution to the
questioned contract costs.



INVESTIGATIONS

The Investigations Section is responsible for investigating
violations or criminal statutes as well as regulations involving
NSF employees, grantees, contractors, and other individuals
conducting business with NSF.  The results of these investigations
are referred to federal, state, or local authorities for criminal
or civil prosecution or to NSF's Office of the Director to initiate
administrative sanctions or penalties.




EMBEZZLEMENT OR DIVERSION
OF NSF GRANT FUNDS

We place a high priority on allegations involving embezzlement,
diversion of grant or contract funds for personal use, or other
illegal use of NSF funds.  Deliberate diversion of NSF funds from
their intended purpose is a criminal violation that can be
prosecuted under several statutes. We encourage universities and
other grantees to notify NSF of any significant problems relating
to the misuse of NSF funds. Early notification of significant
problems increases our ability to investigate allegations and take
corrective action to protect NSF and its grantees.


__________________________________________________________________

Table 2:  Investigative Activity
__________________________________________________________________


Active Cases From Prior Reporting Periods                   22

New Allegations                                             30


          Total Cases                                       52

Cases Closed After Preliminary Assessment                    6

Cases Closed After Inquiry/Investigation                    21

          Total Cases Closed                                27

          ACTIVE CASES                                      25

_________________________________________________________________


The following section describes cases involving the diversion of
funds that we investigated during this reporting period.


False Statements and Forgeries Found
in Investigations of SBIR Awards

The SBIR program, which is coordinated by the Small Business
Administration (SBA), is an important component of the government's
effort to increase the competitiveness of American industry in
innovative research and development. The program started at NSF and
was so successful that 11 federal research agencies have
implemented SBIR programs. The SBIR program's objectives include
stimulating technological innovation in the private sector;
strengthening the role of small business in meeting federal
research and development needs; increasing the commercial
application of federally supported research results; and fostering
and encouraging participation by minority and disadvantaged persons
in technological innovation.

This year, we led investigations involving two small
high-technology businesses that defrauded the SBIR program. Based
on these investigations, we concluded that these companies
submitted false statements and false claims and forged documents to
receive duplicate funding under SBIR awards. Discussions of the two
investigations, and the systemic recommendations made as a result
of these investigations, follow.

    Small Business Fraudulently Obtained Over $1.5 Million in
Duplicate Funding. NSF led an investigative team consisting of
special agents from NSF, the National Aeronautics and Space
Administration (NASA), and the Department of Defense (DoD). This
coordinated investigation found evidence that the owner of a small,
high-technology business repeatedly submitted duplicate proposals
to, and received duplicate funding from, NSF, NASA, and various DoD
agencies, without informing the agencies as required by the agency
solicitations.

We found that the company "recycled" 11 research ideas 40 times in
duplicate submissions to the SBIR programs of different federal
agencies.  We concluded that the company made numerous false
statements to conceal the duplicate submission of these proposals
and prior duplicate awards. As a result, the company received over
$2.5 million in research funds, of which only about $1 million
would have been awarded if the company had informed the government
of its duplicate submissions. Therefore, we concluded that the
company had fraudulently obtained about $1.5 million in SBIR
funding.

Based on this information, we recommended, and NSF agreed, that the
company be suspended from receiving new federal awards until the
investigation is complete. Because of this action, awards totaling
$1,395,311 have been suspended governmentwide.

Also, in response to our recommendations, NSF saved $90,374 by
deciding to no longer provide funds to the company under two
current awards.

In addition to submitting false statements to receive duplicate
funding, we found that the president of the company submitted
forged commitment letters with the proposals.  Commitment letters
are submitted with Phase II SBIR proposals to demonstrate that
other companies have expressed an interest in commercializing the
idea discussed in the small business' proposal. We have evidence
that the president also forged the signature of one of the PIs on
two proposals, one of which received an award.

We referred criminal violations developed by our investigation
under 18 U.S.C. 287 (False Claims), 494 (Forgery), 1001
(False Statements), and 1343 (Wire  Fraud) and civil violations
under the Civil False Claims Act to the appropriate U.S. Attorney.
If the company is found liable under the Civil False Claims Act,
the government may recover the $1.5 million fraudulently obtained
and triple damages, as well as impose penalties of $5,000 for each
false claim.

    Continued Investigation Uncovers Additional Fraud by Small
Business Owner.  In Semiannual Report No. 8 (page 14), we
reported that a small, high-technology company fraudulently
obtained double funding from NSF and another federal agency by
submitting false statements in proposals that concealed the
duplicate submission of the same proposal to NSF and NASA.  In this
semiannual period, at the request of the U.S. Attorney, we
broadened our investigation to include all of that small business'
SBIR activities. We led an investigative team of special agents
from NSF, NASA, and DoD.

We found that the owner of the small business submitted additional
duplicate proposals, forged the signatures of the principal
investigators (PI) on several proposals, and submitted false
information concerning fringe benefits that were not paid to the
PIs. These forgeries and misrepresentations resulted in a financial
loss to the government of approximately $400,000.

The investigation determined that the owner submitted at least 31
false statements, violating 18 U.S.C.  1001, and forged
signatures on 14 documents, violating 18 U.S.C. 494. This matter
in now under review by the U.S. Attorney's Office.

    Systemic Recommendations.  Currently, SBA publishes an annual
list of SBIR awards made by the 11 federal agencies that
participate in the SBIR program. However, we  found that the list
is deficient because it does not provide enough information to
allow the agencies to protect against duplicate funding. We have
recommended that NSF coordinate with SBA and other SBIR agencies to
establish a program-wide database that would include the names of
all companies that have submitted SBIR proposals; the titles and
abstracts of all proposals submitted to each agency; and whether
each proposal was awarded or declined, and if awarded, the amount
of the award. We believe that a program-wide SBIR database would
reduce the likelihood of future problems similar to those in the
cases discussed above.



OTHER CASES INVOLVING MISUSE OF NSF FUNDS


University Does Not Report
Unobligated Funds

We received allegations of misuse of NSF funds at a southern
university. At our request, the university investigated the
allegations. The university found no criminal wrongdoing on the
part of its officials or employees. However, during our follow-up
review, we did find that the university underreported over $400,000
in unobligated (residual) grant funds over several years. We
recommended that the $400,000  be deleted from the university's FY
1994 program funds, and that NSF request repayment of the interest
earned on the funds. The university agreed to promptly report
future unobligated funds.

University Employee
Embezzles NSF Funds

We were informed by a west coast university that a university
employee had allegedly embezzled funds from an NSF grant account.
Local law enforcement officials conducted an investigation and
found that the employee had embezzled $19,775 in NSF grant funds as
well as over $60,000 in other federal agencies' grant funds.  The
employee later pled guilty to charges of grand theft and forgery.
On July 20, 1993, the employee was sentenced to 16 months
imprisonment at a state penitentiary and ordered to make
restitution. The university returned the embezzled funds to NSF.

Unauthorized Charges
Made to NSF Grant

In February 1993, we received an allegation of wrongful charges to
an NSF grant and misappropriation of NSF-funded equipment at a
southern university. Although there was no evidence of criminal
wrongdoing, we found that the PI's department chairman made charges
to the PI's NSF grant without authorization. The university
returned $6,689 to the grant account.

Improper Salary Charges
Made to NSF Grant

We received an allegation of fraudulent payroll transactions
involving NSF grant funds in a university's Young Scholar program.
At our request, the university's audit department investigated the
allegations.  The department's investigation found that a part-time
instructor at the university falsely stated that he taught two
courses at the university. The two courses were actually taught by
a different university employee. With the assistance of the other
employee, the part-time instructor received NSF funds for teaching
these two classes. The university returned $2,206 to NSF and is
determining appropriate disciplinary action against the part-time
instructor.


FOLLOW UP ON CASES REPORTED IN PREVIOUS SEMIANNUAL REPORTS


    Credit Card Thefts: In Semiannual Report No. 8 (page 18), we
reported that we had investigated the theft of credit cards from
NSF and had recommended preventive measures to NSF, which were
implemented. Further investigation resulted in the termination of
two contract employees from the NSF mailroom. We referred our
findings to the appropriate U.S. Attorney for prosecution.

On July 20, 1993, one former employee waived indictment and pled
guilty in U.S. District Court to one count of Obstruction of Mails,
in violation of 18 U.S.C.  1701. The former employee was
sentenced to 2 years' probation and ordered to pay restitution.
Prosecution of the other former employee for credit card fraud was
referred to local prosecutors and is pending.

    Diversion of NSF and  Nonprofit Society Grant Funds by a PI:
In Semiannual Report Nos. 7 and 8 (page 17), we reported that we
had investigated allegations of fraud against a PI on grants
totaling $280,000 from NSF and a nonprofit society. We also
reported that the PI had pled guilty in U.S. District Court to
violations of 18 U.S.C.  666 and 1341. On April 21, 1993, the
PI was sentenced to 1 year imprisonment, and, upon release, 2
years' supervised release and 2 years' community service. At our
recommendation, NSF debarred the PI from federal nonprocurement
activities for 3 years.

    Abuse of Car Pool System: In Semiannual Report No. 8 (page 18),
we reported that we had completed an investigation of employee
abuses of the NSF parking permit system. We recommended that NSF
impose a total of 43 administrative sanctions against individual
employees for these abuses. NSF's Division of Human Resource
Management has completed action on these sanctions, which
considered the employees' parking permit abuses and past
disciplinary records. The investigation resulted in 41
administrative actions, including suspensions, and recovery of
fraudulently obtained parking subsidies.

    Procurement Problems Rectified: In Semiannual Report No. 5
(page 23), we described our investigation of impropriety associated
with a request for proposals (RFP) to manage an NSF program. Based
on our findings, NSF's Director ordered the cancellation and
recompetition of the RFP. During this reporting period, NSF
concluded the recompetition and hired a new contractor to manage
the program. We reviewed the records of the recompeted RFP and
concluded that the problems we previously identified had been
rectified.




_________________________________________________________________

Table 3
_________________________________________________________________


New Referrals                                          4

Referrals From Previous Reporting Period               1

Prosecutorial Declinations                             1

New Indictments                                        1

Indictments From Previous Period                       0

Criminal Convictions/Pleas                             1

Administrative Actions                                 6

          Investigative Recoveries*                 $435,356

          Government Suspension of Awards*        $1,395,311

*Investigative Recoveries comprise civil and criminal judgments,
fines, and restitutions as well as specific cost savings for the
government.  In this reporting period, the Investigative Recoveries
relate only to NSF, while the Governmentwide Suspension of Awards
result from interagency investigations where NSF was the lead
agency.

_________________________________________________________________


OTHER INVESTIGATIVE ACTIVITIES

    Principal Investigator Submits False Statement for Awards.
We investigated an allegation that a university professor had
submitted false statements in order to qualify for an NSF Young
Investigator award.  These awards are given to selected university
professors nationwide who possess outstanding teaching and research
potential.  Award recipients must meet several requirements and are
selected on a competitive basis.

Our investigation revealed that the professor submitted false
statements regarding the dates on which he received his Ph.D. and
began his postdoctoral research.  We reported the accurate dates to
NSF officials responsible for managing the NSF Young Investigator
program.  Although the professor was initially recommended to
receive an award, NSF later determined that the professor was
ineligible.  The nomination was declared "inappropriate," on the
basis of the professor's ineligibility.  Withholding of the
intended award saved NSF $312,500 and allowed NSF to award those
funds to another eligible young professor.

We referred the results of our investigation to the appropriate
U.S. Attorney, who declined prosecution.  We then referred this
matter, and other possible problems regarding the professor's past
submissions, to our Office of Oversight to determine whether these
actions violate NSF's misconduct in science regulations.


                     *          *         *


    NSF Program Officer Did Not Report Conflict of Interest:
We investigated an allegation that an NSF program officer had an
unreported conflict of interest with a PI.  We found that the
program officer had a personal association with the PI, whose grant
he administered, and failed to recuse himself as required.

Although we found no criminal conflict-of-interest violations, we
did find that the program officer inappropriately used NSF
telephone and electronic mail for personal communications with the
PI.  We also found that by making excessive personal calls during
duty hours, the program officer demonstrated inattention to this
NSF duties.  We recommended that NSF take administrative action
against the program officer.  The program officer received a letter
of warning and repaid the cost of the improper telephone charges.


OVERSIGHT

The Office of Oversight focuses on the science-engineering-
education-related aspects of NSF operations and programs.  It
oversees the operations and technical management of the
approximately 200 NSF programs that involve about 60,000 proposal
and award actions each year.  The Office conducts and supervises
compliance, operations, and performance audits as well as
investigations of NSF's programs and operations; undertakes
inspections and evaluations; and performs special studies.  It
handles all allegations of nonfinancial misconduct in science,
engineering, and education and is continuing studies on specific
issues related to misconduct in science.


MISCONDUCT IN SCIENCE
AND ENGINEERING


Policy Discussions Concerning
Misconduct in Science

We continue to follow the ongoing dialogue on misconduct in
science. This semiannual report contains four policy discussions
that address recent developments. The following two discussions
concern the definition of misconduct in science and respond to
continuing debate over that subject. Two other discussions, one on
the role of intent in misconduct cases and another on the
Department of Health and Human Services' (HHS) new policy of
publicly identifying all persons against whom it has made
misconduct findings, are in the Legal section of this report. OIG
scientists and lawyers contributed to all four policy discussions.
These discussions do not preempt or prejudge issues that are within
the jurisdiction of NSF management, including issues that can only
be decided when  NSF's Director or Deputy Director review
particular cases.

*****************************************************************

NSF's Definition of Misconduct in
Science and Engineering

Fabrication, falsification, plagiarism, or other serious deviation
from accepted practices in proposing, carrying out, or reporting
results from activities funded by NSF; or retaliation of any kind
against a person who reported or provided information about
suspected or alleged misconduct and who has not acted in bad faith.

*****************************************************************


Congress and the Definition
of Misconduct in Science

NSF and HHS define "misconduct in science" essentially identically,
as fabrication, falsification, plagiarism, or other serious
deviation from accepted practices. Some recent policy discussions
criticizing this definition have suggested that Congress intended
to limit the authority of federal agencies in this area to
"scientific fraud," which is perceived to be substantially narrower
in scope than "misconduct in science." The expression "scientific
fraud" is promoted because it would include within the government's
purview only cases involving deception. However, analysis of the
legislation and its history does not reveal congressional intent to
limit the authority of federal agencies to ensure the integrity of
their programs. In our view, an agency would not be conducting
adequate oversight of its programs if it ignored acts of misconduct
in science merely because they did not constitute "fraud."

In the 1980's, congressional subcommittees held several hearings to
gather information on misconduct in science.  These hearings tended
to focus on egregious cases of misconduct in science that  involved
biomedical research projects funded by HHS. Because of the
perceived inadequacy of HHS's handling of these cases, Congress
responded to these hearings in 1985 by adding section 493 to the
Public Health Service (PHS) Act. Section 493 is titled "Protection
Against Scientific Fraud," and requires that HHS establish
procedures for responding to "scientific fraud."

Section 493 does not define "scientific fraud." Some critics have
asserted that when Congress referred to "scientific fraud" in
section 493, it intended something much less than the "misconduct
in science" definitions that NSF and HHS later implemented and
therefore NSF and HHS acted beyond their statutory authority.

First, every agency has the intrinsic authority and responsibility
to protect the integrity of the programs that it funds. Section 493
of the PHS Act does not apply to NSF or any federal agency other
than HHS, and it also in no way limits HHS's authority to define,
proscribe, investigate, adjudicate, and sanction misconduct in
science under agency programs: like all federal agencies, HHS had
such authority before section 493 was enacted, and it has it now.
The focus of the hearings and legislative climate that produced
section 493 was the perceived inadequacy of HHS's response to some
if its cases; Congress' objective was to force HHS to establish
procedures and take action. When Congress enacted section 493, it
intended to force HHS to carry out its responsibility to protect
the integrity of its programs; there is no evidence that Congress
intended to limit HHS's authority to do so.

Further, there is no evidence that Congress had a specific meaning
in mind when it used the expression "scientific fraud" in section
493. When Congressman Henry Waxman introduced the bill in the House
of Representatives, he referred to the new section 493 as providing
a "system for investigating reports of scientific misconduct." The
section in the conference report that discusses section 493 is
entitled "Scientific Misconduct," and uses the terms "misconduct"
and "fraud" interchangeably, even within the same sentence.

And finally, regardless of what Congress may have intended when it
used the word "fraud" in section 493 in 1985, Congress has now
amended that section to use the "misconduct" language used by HHS
and NSF. The current NSF definition was proposed and finalized in
1987 and amended in 1991, and HHS's definition was proposed in 1988
and finalized in 1989; both definitions eschewed the word "fraud"
in favor of "misconduct." At the beginning of 1993, Congress
amended section 493 of the PHS Act so that it now refers to
"research misconduct" and explicitly gives to HHS the authority to
define that expression.

There is no indication in the legislative history of the 1993
amendment that Congress was dissatisfied with the NSF and PHS
definitions or that Congress intended for HHS to change its
definition. To the contrary, the House report accompanying the
amendment explains that this new terminology was chosen "to clarify
that coverage is not confined to basic research or any other narrow
subcategory that might be suggested by the more traditional terms
such as `scientific' misconduct." The House report directed that
the definition promulgated by HHS "should include practices which
seriously deviate from those that are commonly accepted within the
scientific community and that materially and adversely affect the
integrity of research." Similarly, the conference report
accompanying the amendment discussed the need for the establishment
of "Federal standards governing research integrity" and emphasized
that "abuses or deviations from these standards must be uncovered
and promptly dealt with in a serious and credible manner."

Moreover, Congress expressed its approval of the current
definitions in another forum, a committee report that accompanied
the 1993 appropriation bill for the Office of Science and
Technology Policy (OSTP). In that report, the committee noted
that: OSTP intends to develop . . . a Government-wide definition
of misconduct . . . . the Committee believes the definition should
. . . ensure that Government sanctions can be imposed against any
researcher who acts inappropriately. . . . in that regard, the
Committee is strongly supportive of the definition . . . developed
by the National Science Foundation.

These are clearly not the actions of a Congress intending that the
federal agencies that fund science should cut back on the scope of
their efforts with regard to scientific integrity.

"Plagiarism" and "Falsification" in the
Definition of Misconduct in Science

Some recent policy discussions on the definition of misconduct in
science employed at NSF have proposed that the phrase "other
serious deviation from accepted practices" should be dropped from
the existing definition. These discussions suggest that the
definition should consist only of falsification, fabrication, and
plagiarism, the three examples of serious deviation contained in
the current definition. This section suggests difficulties that
might emerge if the definition were limited to falsification,
fabrication, and plagiarism.

One reason given for wishing to change the definition is that the
current definition is excessively broad and vague. A definition
consisting only of falsification, fabrication, and plagiarism is
supposed to be narrow and precise enough that government
application of it will be predictable and scientists will know what
they are not supposed to do.

To make the definition specific, some writers recommend definitions
for the individual terms. Unfortunately, these definitions have to
be excessively broad in order to capture the cases that are now
covered under "other serious deviation from accepted practices" and
that need to be covered by any definition. In addition, they turn
out to be vague in their own way.

For example, it has been suggested that plagiarism should be
defined as "misappropriation of intellectual property." However,
that is a vague term that itself raises serious problems of
interpretation. Under such a definition, any offense that in some
conceivable way pertains to the possession or ownership of
intellectual property would be treated as plagiarism and therefore
as misconduct in science. This happens because the proposed
definition does not say what relation the offense has to have to
intellectual property. In addition, it does not attempt to say
which practices involving intellectual property should be
considered "misappropriation." Hence, the range of possible cases
that might fall under such a definition of plagiarism would be
quite unpredictable.

The proposed definition of plagiarism has been applied to a
well-known case of alleged data falsification involving two
scientists employed at the PHS, where the issue is said to be the
"misappropriation" of a virus. It is surprising to see such a case
classified as plagiarism.

A second example is a widely reported case at Michigan State
University in which a graduate student was accused of withholding
data from her collaborators over a long period of time. While a
visiting inquiry committee treated this as an "other serious
deviation," it has also been called a misappropriation of
intellectual property and therefore plagiarism, which goes far
beyond the usual understanding of that term.

Thus, the proposed definition raises issues of interpretation much
like those raised by the "other serious deviation" phrase. In both
cases, the solution is the same, that is, to rely on the standards
of the relevant community of scientists as the criteria for what is
or is not misconduct. The crafting of words in the definition
cannot substitute for this.

The violation of the confidentiality of peer review is a practice
NSF would call an "other serious deviation." However, this practice
is sometimes placed under the broadened definition of plagiarism as
violation of intellectual property in order to make the "other
serious deviation" phrase unnecessary.

This effort does not succeed because some ways of violating
confidentiality do not involve intellectual property. For example,
it is a violation of confidentiality to reveal the names of
reviewers or the scores that individual reviewers have given to
grant proposals or fellowship applications, but these are not
intellectual property matters.

When a breach of confidentiality occurs that also involves a
violation of intellectual property, these are two distinct elements
of the case. Hence, it is not accurate to describe such cases
exclusively as "plagiarism" cases. In general, all violations of
confidentiality involve an offense that goes beyond even a broad
definition of plagiarism, and the "other serious deviation" phrase
is needed in order to deal with them.

There have also been proposals with regard to defining the term
"falsification." It has been suggested that this should be defined
as "changing data or results." However, the same authors apply the
term "falsification" to practices like misrepresenting one's
qualifications and achievements in a grant application. This
practice is widely regarded as misconduct in science and is
currently covered by the "other serious deviation" phrase. Since
information about one's qualifications and achievements is not
"data or results," the misrepresentation of that information is not
"falsification" as defined. The reference to "data or results"
makes this definition too narrow to cover the desired case.
However, in other respects, this definition is excessively broad.
"Changing data or results" is an expression that might apply to any
kind of data reduction or statistical analysis. Hence, it is not
suitable for use in a government agency's definition of misconduct
in science.

As these examples demonstrate, it is far from easy to develop a new
and practical definition of misconduct in science. The current
definition of misconduct in science ensures that NSF can take
action in all appropriate situations, and we believe that it is
essential for NSF to maintain its authority to do so. We look
forward to working with the other federal agencies and the
scientific community regarding these issues.


SIGNIFICANT MISCONDUCT CASES


Misconduct Finding and
Actions Recommended Against College

For the first time, we have recommended that NSF make a finding of
misconduct in science against an institution and take appropriate
action. Previously, we have made such recommendations only with
regard to individuals. This case involves two PIs who were employed
in the college of engineering at a southwestern university. The PIs
submitted three proposals and two letters to NSF that contained
false statements. We determined that the college also shared
responsibility for these misrepresentations.

The false statements exaggerated the extent of the services that
the college offered to Native American and Hispanic undergraduate
students. These statements strengthened the proposals when they
were reviewed at NSF. The proposals were submitted to NSF education
programs, which place special emphasis on projects that serve
minorities that are underrepresented in science and engineering.

The PIs sent a total of eight false statements to NSF in various
documents. For example, several statements indicated that the
program for Hispanic students had awarded 20 full scholarships.  In
fact, it had awarded no full scholarships. Similarly, the Native
American program was said to award 20 full scholarships per
year. In fact, it had only awarded 20 full scholarships altogether.
In response to an inquiry from NSF, 1 of the PIs later revised this
statement to say that the Native American program awarded only 10
scholarships per year after the 20 scholarships that were awarded
in the first year for a total of 50 over 4 years. To support this
revised statement, the PI provided lists of students receiving
these additional 10 scholarships. We learned that these students
were not actually receiving new scholarships, but were only
replacing dropouts. In fact, the program was in such difficulty
that the number of awardees had fallen to seven. We regarded this
further misinformation and this concealment of information as
aggravating the original offense.

We referred the matter to the U.S. Attorney, who declined to pursue
this matter. We are treating this case as misconduct in science,
under the "other serious deviation from accepted practices"
provision. We have sent our investigation report on this case to
NSF's Office of the Director with the recommendation that it issue
findings of misconduct in science and take action against the two
PIs and the college.

Because of actions and omissions by the dean, the associate dean,
and a department chair (the first PI), we believe that the college
as a whole shares responsibility for the false statements sent to
NSF. However, we were told that no one in the college
administration took responsibility for assessing the accuracy of
representations about the college when reviewing and clearing the
proposal. We consider this unacceptable because the statements at
issue are about matters that are within the college
administration's knowledge and control. We do not expect the
institution's reviewing officials to review the technical content
of proposals, and institutions ordinarily bear no responsibility if
the proposal contains false statements about science or
engineering. However, institutions are expected to take
responsibility for the truth of statements in proposals that
concern matters within the purview of the institution itself, such
as the minority programs that those institutions operate.

This case illustrates the importance of providing accurate
information in proposals. This applies in particular to claims
about services offered to minorities when these services may be
criteria used in evaluating those proposals. Institutions should
ensure that statements on these matters are correct.


Plagiarism in a Proposal
Submitted to NSF

We received an allegation that a faculty member at a midwestern
university had plagiarized sections of her Research Experiences for
Undergraduates (REU) proposal from a funded REU proposal, which was
previously submitted by the complainant. We were informed that the
institution was evaluating the allegation, and we waited for the
results of the evaluation before deciding how to proceed. We
learned that there were two evaluations of this allegation at the
institution.

By reviewing the documents associated with the institution's two
evaluations, we determined that the subject had, at a previous
department chairman's suggestion, obtained the departmental copy of
the complainant's proposal. In preparing her proposal, she had
copied a total of four pages of text from that proposal into  her
proposal.

In the first evaluation, the chairman concluded that much of the
copied material was  "boilerplate" and that some of the copied
material was part of the proposed work but, that text was so
stringently dictated by the NSF program announcement that little
latitude was left for the language that could be used in a
proposal.

The Chairman concluded that the subject's actions were naive and
unintentional and did not constitute serious "academic dishonesty."
A letter describing the evaluation was placed in the subject's
personnel file at the institution, and the subject voluntarily
withdrew her proposal from consideration at NSF.

After reviewing the materials supplied by the institution, we
concluded that they did not convey the results of a complete
investigation. We completed the investigation by gathering the
subject's views on the allegation and reviewing relevant documents.

The subject confirmed that she had copied or closely paraphrased
materials from the complainant's proposal without his permission
and without providing him an acknowledgement because she thought
they were "standard" materials. The subject's proposal did not cite
his original proposal as the source for the copied materials.

Language that is freely available to all faculty members and is
used routinely in proposals submitted by a department can be
considered  "boilerplate." The subject informed us that such
material did not exist in this department. In this case, the copied
material determined by the institution to be "boilerplate" was
unique to the complainant's original proposal. The complainant was
unaware that his proposal was being "shared" with other faculty
members.

The copied material the chairman identified as part of the proposed
work was not, as he portrayed, stringently dictated by the NSF
brochure.  That brochure provides guidance on the important topics
to be included in a proposal and emphasizes the importance of these
topics in NSF's evaluation of the proposal. The subject agreed that
the NSF brochure did not dictate the text to be used in the
proposed work. The subject said that although she viewed the
material she had copied as "stereotyped supporting materials," she
should have obtained the complainant's permission before using it.

We regard using the words or ideas of another person without
permission and attribution as plagiarism, even if the copied
material is a description of common facilities or faculty. In
deciding whether plagiarism occurred, the presence of unattributed,
copied material in a work is not mitigated by the presence of
original text in that same work.

We recommended, and NSF's Deputy Director found, that the subject
committed misconduct, specifically plagiarism, under NSF's
definition of misconduct in science and engineering. We also
recommended, and NSF's Deputy Director accepted, the following
sanctions: for a 3-year period, any proposal the subject submits to
NSF should be accompanied by a certification to OIG of her present
responsibility and her understanding of ethical conduct. The
institution should also include with each certification its own
assurance that the proposal appropriately acknowledges all original
sources of information.


Plagiarism in SBIR Proposals
Due to Common Third Source

An NSF program officer reported that under the SBIR solicitation,
two investigators had submitted proposals that contained identical
language in their discussions of the general research problem and
the broad technical approach.   OIG contacted both subjects, who
reported that the identical material was derived from a proposal
written by an academic researcher with whom both had collaborated
on industrial development projects. The original author told us
that he had inadvertently given both investigators permission to
adapt his proposal and submit it for funding. However, both
investigators used verbatim excerpts in their submissions to NSF,
and cited neither the proposal nor the original author.

We determined that insufficient evidence existed to pursue an
investigation of misconduct in science because both subjects had
collaborated closely with the original author and had included him
as a participant in their proposed research, and both believed in
good faith that they had permission to revise and adapt the
original author's proposal and then submit it as their own. We
concluded, however, that both subjects and the original author
should have been more careful. One subject was deceased, and we
wrote to the other advising him that he should not have
incorporated language from an earlier research proposal by another
investigator without indenting the material or enclosing it in
quotation marks and without citing the original source. We informed
the original author that he should not have given two researchers
permission to adapt and submit his proposal without clearly
specifying the terms of their collaboration with him or the credit
due him for his original contributions to the proposals derived
from his work. With these letters, we closed the case.


Openness Achieved for
Social Science Data

This case was brought to us by an NSF program officer who was
concerned about a continuing resistance to share data collected
under an NSF award by a faculty member of a prominent university.
When other researchers challenged the accuracy of her findings, she
repeatedly failed to make her data available for reanalysis. Under
pressure from the cognizant NSF program office, she eventually
placed the data in a public archive, but attached highly
restrictive conditions to their use.

The subject's actions were inconsistent with NSF's and the
scientific community's commitment to open communication. NSF's
Grants for Research and Education in Science and Engineering
recognizes the importance the scientific community attaches to
openness by "expect[ing] investigators to share with other
researchers, . . . within a reasonable time, the data . . .
gathered in the course of the[ir] work" and encouraging NSF program
managers to implement this policy of openness in "the proposal
review process [and] through award negotiations and conditions."

After an exchange of letters in which NSF program officers reminded
the subject that she had agreed to share these data when she
applied for a subsequent grant, the subject agreed to make the data
freely available. Her action brought her into compliance with
community norms about data sharing, and we decided that the
subject's earlier reluctance to share her data was not, as such,
misconduct.

We concluded that, with the data now open for scrutiny, the normal
processes of scientific evaluation could be counted on to raise any
issues of misconduct concerning data collection and analysis if the
newly available facts warranted it. This case underscored the
importance of data sharing to the progress of science and raised
the possibility that under some circumstances persistent refusal to
share data might itself constitute misconduct in science.


Institution Finds Only
Minor Plagiarism

We were informed by a  reviewer that a proposal he had received for
merit review contained text from a review article he had previously
published. The proposal contained one passage that had been copied
from the original author's text, but which had not been offset by
indentations or quotation marks and was not accompanied by a
citation to the original author's work.  We found another passage
in the proposal that drew on information from the same article but
was accompanied by a citation to that review article.

In response to our request for information, the PI on the proposal
stated that a subordinate in the PI's laboratory, as a mutually
agreed upon first step in establishing the subordinate's
independent research program, had written and submitted the
proposal for institutional review. After its submission, the
institution informed the subordinate and the PI that under
institutional rules, the subordinate was prohibited from submitting
the proposal.  Therefore, the PI agreed to submit the proposal,
with minor changes, as the sole PI.  The PI stated that the copied
material had been added by the subordinate in draft and had been
carried forward in  subsequent drafts; she was unaware of its
presence. The PI's response was accompanied by a statement from the
subordinate in which she accepted full responsibility for the
copying and corroborated the PI's other statements. We determined
that a full investigation into this allegation was necessary and
deferred it to the institution.

The institution confirmed the information in the PI's and
subordinate's statements and concluded that the subordinate's
failure to offset the text or to provide a citation was due to
haste and carelessness in preparing the first proposal draft. The
committee could not find any evidence that this copying was part of
a pattern of behavior.

The institution sent a letter of caution to the PI stating that
mentorship responsibilities included providing subordinates with
instruction on misconduct issues. A letter of reprimand for
committing plagiarism was sent to the subordinate and a copy was
placed in her faculty record file.

We found that the institution's investigating committee conducted
an accurate  and complete investigation. We concluded that after
all the mitigating circumstances were considered, among them the
subordinate's relative inexperience, the institution's actions were
sufficient.  Therefore, we closed this case without further action.


Alleged Breach of
Confidentiality of Peer Review

We recently handled a case involving a breach of confidentiality by
panelists reviewing NSF Young Investigator proposals. From
discussions with the panelists and the PI who received the
confidential information, it was apparent that their views on the
confidentiality of panel deliberations varied.

We sought to evaluate the panel's alleged breach of confidentiality
to determine what happened and who was involved. Our inquiry
confirmed that the PI had approached at least two panelists seeking
information about the reasons for his declination. When contacted,
the PI expressed the view that the confidentiality of panel
deliberations was not an important issue.

Several panelists spoke to us in some detail about the case,
revealing that panelists differ in their knowledge of, and
attitudes toward, confidentiality requirements. For example, one
panelist said that it is quite common for PIs to claim that they
know their ranking or to try to find out about their ranking.
Another stated that PIs frequently learn their rankings, and that
the confidentiality of the review process is breached more
frequently than one would expect. A third panelist indicated that
he might reveal information about panel deliberations if he had a
connection to the PI requesting the information.  Some panelists
expressed a need for clearer information on confidentiality
requirements. This need is being addressed in part by NSF's new
form, "Conflict of Interests Statement for NSF Advisory Panel
Members."

In this case, we could not conclude that the candidate actually
received information from panelists, nor was it possible to
determine, if information was leaked, which panelist was
responsible. We closed this case without a finding of misconduct.

However, we did communicate to those involved our view that
confidentiality of panel deliberations is essential for open
discussion and evaluation during the review process. Disclosure of
such information is contrary to NSF policy, and it is the
responsibility of both PIs and panelists to respect and maintain
that confidentiality. Under some circumstances, breaches of
confidentiality in peer review may constitute a violation of NSF's
misconduct in science and engineering regulation.



_________________________________________________________________

STAFF ACTIVITIES

During this reporting period, members of the Oversight Offices's
science and engineering staff organized a session on misconduct in
science and presented papers at the Third Conference on Research
Policies and Quality in Baltimore.  One staff member also
contributed a short article on plagiarism to "Perspectives on the
Professions," a publication of the Center for the Study of Ethics
in the Professions at the Illinois Institute of Technology and an
article entitled "Some Considerations in Defining Misconduct in
Science," to the Proceedings of the February 1993 Sigma Xi Forum on
Ethics, Values, and the Promise of Science.

_________________________________________________________________


_________________________________________________________________

Table 4:  Misconduct Case Activity

                                        FY 1993        FY 1993
                                        First Half     Last Half

Active Cases From Prior Period               72            81

Received During Period                       27            31

Closed Out During Period                     18            25

In-Process at End of Period                  81            87

_________________________________________________________________


INSPECTIONS AND EVALUATIONS

In March 1993, the President's Council on Integrity and Efficiency
issued its Quality Standards for Inspections to guide the conduct
of inspection work. These standards provide a framework for
performing inspections and define an inspection as:  ". . . a
process, other than an audit or an investigation, that is aimed at
evaluating, reviewing, studying, and/or analyzing the programs and
activities of a Department or Agency for the purposes of providing
information to managers for decision making, for making
recommendations for improvements to programs, policies or
procedures, and for administrative action.  The objectives of
inspections include providing a source of factual and analytical
information, monitoring compliance, measuring performance,
assessing the efficiency and effectiveness of operations, and/or
conducting inquiries into allegations of fraud, waste, abuse and
mismanagement."

Quality Standards for Inspections addresses the following aspects
of an inspection: the qualifications and independence of the
individuals performing the work, due professional care, quality
control, planning, data collection and analysis, evidence,
supporting documentation, timeliness, fraud and illegal acts,
reporting, and follow-up. As stated in the "Preface" of the Quality
Standards for Inspections, the use of inspections by OIG offices
has grown to meet a number of needs, including the need to generate
greater deterrence through OIG coverage with fewer staff, to use
different types of study methods and evaluation techniques, provide
timely feedback to program managers, and review highly technical
subjects. Since these needs vary from one OIG to another, it is
widely understood that inspections will be tailored to individual
circumstances that reflect the unique mission of each department or
agency.

We view inspections as an especially effective approach for OIG
oversight in NSF because of the highly technical nature of NSF's
mission. Our inspections are on-site reviews both within NSF itself
and at the institutions that receive NSF funding. OIG staff
assesses organizations' compliance and effectiveness in three major
areas: finance, administration, and achievement of science and
engineering program goals in research and education. Our
inspections supplement OIG's ongoing audit and investigative
activities by broadening accountability beyond financial and
administrative compliance requirements to assess the responsiveness
of research and education activities to individual program goals.
Our external on-site reviews promote an increased awareness by PIs
and their sponsoring institutions of the importance of
accountability in the management and the performance of NSF awards.

Inspection teams use a variety of study methods and are composed of
three or four OIG staff members. The composition of any team
depends on the expertise required to understand the research or
activity being inspected. Team members may include scientists and
engineers, auditors, computer specialists, investigators, lawyers,
or management/program analysts. If the expertise is not represented
by OIG staff, consultants from the private sector or other federal
agencies may be used. Evaluation of the inspected institution's
policies and procedures, award documentation, and related financial
records is performed both in advance of, and during, the
inspection.


Inspection of a Plant Biology Department
at a Private, Nonprofit Research Institution

We conducted an inspection at the research institution's department
of plant biology to review performance and compliance under a total
of eight NSF grants. Five of these grants were for basic research
in different areas of plant biology, and the remaining three grants
were for equipment, a workshop, and international collaborative
research.

    Financial:  During the financial and compliance portion of our
review, we found that the department's internal control structure
was generally satisfactory, and the department complied in all
material respects with the requirements of the award documents.
However, we did identify, and make recommendations to correct,
weaknesses in the institution's policies and procedures in the area
of charging and controlling costs on federal projects.

We questioned $28,707 because excessive fringe benefits were
charged to NSF awards, costs were incurred after the expiration
date of the grant, and tickets purchased to fly on foreign airlines
were not justified. We recommended that the department improve the
manner in which fringe benefit costs are allocated and leave is
accumulated and reported; develop and implement a system that
identifies cost sharing; and review and approve purchases,
invoices, travel plans, and travel expenses.

    Administrative:  In the administrative portion of our
inspection, we found no significant deviations from, or failure to
comply with, essential elements of current federal or agency
requirements pertaining to the areas of this review, which were:
to evaluate the institution's ability to effectively resolve
allegations of misconduct in science; determine the adequacy of the
institution's handling of misconduct allegations to date; assess
the institution's compliance with drug-free workplace requirements,
lobbying reporting, and certification requirements; review of the
conditions for advancement by women and racial minorities as
scientists and faculty members; and learn about, and evaluate, any
institutional requirements governing financial disclosure.  Our
only concern was the potential problems that might arise in the
handling of allegations of misconduct in science.

While we were conducting the inspection, we learned that the
institution had not received any allegations of misconduct in
science, and we found its "Policy on the Conduct of Research" to be
comprehensive. However, we were concerned about the potential for
future problems because the department staff scientists and
laboratory personnel were unaware of the content of their
institution's policy and of NSF's misconduct in science and
engineering regulation.  Within the department of plant biology,
only the department director, who is the designated misconduct
official for that department, was knowledgeable about the
institution's policy and NSF's regulation.

We also learned that this department had a close working
relationship with a university biology department.  For example,
some university graduate students work in the department of plant
biology's laboratories. This cooperative arrangement mutually
benefited both the institution and the university. However, there
was no understanding between the university and the institution
about who would be responsible if an allegation of misconduct in
science involving a university graduate student is made while the
student is working in this institution's department of plant
biology. We recommended that the institution clarify, and increase
the department's awareness of, its policies and procedures on
misconduct in science.

    Performance: In the program and research review, we observed
that the research funded by NSF in this department was conducted by
well-known scientists, who are considered leaders in their fields,
and in a manner consistent with accepted research practices. We
were impressed by the level of collaboration among the staff
members in this department and between this department's and the
university's department of biology faculties. We found that the
collaboration among the department of plant biology staff and the
laboratory personnel was consciously facilitated by the design of
the research setting and the amount of shared equipment, space, and
supplies. We found that the institution's written "Guideline for
Sharing Data and Materials," which recommended that "as a normal
practice unique materials should be made available, after
publication, to qualified investigators," was strongly integrated
into the plant biology department's work environment. Our overall
impression was that this department was a vigorous, positive,
productive environment for the conduct of significant research that
was particularly conducive to the training of graduate students and
the advancement of postdoctoral scientists' fledgling research
programs.

We were concerned about the ownership of laboratory notebooks and
other data sources documenting NSF-funded work. The PIs that we
interviewed believed that their laboratory notebooks belonged to
them, although they generally recognized that, as the product of
federally sponsored grants, the location of such information was of
concern to the federal government. PIs generally permitted
postdoctoral scientists and visiting scientists working in their
laboratories to take the research notebooks and data generated by
those people with them when they left. In some cases, PIs who are
permanent members of the department of plant biology retained
copies of data and experiments that they believed were important.
We were told that neither the institution nor the department of
plant biology had a formal written policy regarding notebook
ownership; however, the individual PIs in the department knew the
location of the people who had worked in their laboratories. The
PIs viewed this as adequate institutional knowledge of the current
location of notebooks developed under NSF awards.

NSF's grant conditions state that the grantee institution is
responsible for the laboratory notebooks and primary data developed
under NSF-funded grants. Institutions therefore should be able to
produce or locate such materials in response to a request from the
scientific community, to an agency site visit committee, or as part
of a misconduct in science inquiry or investigation. In our view,
the institution's informal knowledge of the location of this
information did not meet the federal requirements for the retention
of records pertinent to a grant. Thus, we recommended that the
institution issue a written policy to all individuals working in
its laboratories describing institutional responsibilities for
laboratory notebook and data ownership and maintenance, as well as
the procedures under which this material would be allowed to
accompany a PI to a new location.

    Departmental Comments:  During our interviews with the PIs at
the department of plant biology, we received unsolicited, strong
objections to the NSF Directorate for Biological Sciences' (BIO)
policy against reviewing research proposals (with a few exceptions)
that have been submitted to any other federal agency for
simultaneous consideration. BIO's policy is an exception to
NSF-wide policy, which allows for duplicate submission and review
of proposals provided they are identified as such. We were told by
NSF/BIO staff that this policy was instituted to deter overlapping
support, reinforce distinctions among fields supported by NSF/BIO
and other federal agencies, and reduce the workload created by
duplicate submissions that have been as much as half of the
workload. The PIs at the department of plant biology generally felt
that the NSF/BIO policy was unfair especially during the current
tight funding environment for research.

We have recommended that BIO reevaluate its prohibition against
reviewing research proposals that have been simultaneously
submitted to other federal agencies.


FOLLOW-UP ON COST SHARING

As described in Semiannual Report No. 8 (page 31), we conducted a
review of cost sharing by NSF awardees. The review found that some
awardees failed to ensure that their level of cost sharing met the
level promised, and some awardees failed to maintain adequate
records detailing the extent of their cost sharing because they
were not aware that they were required to maintain such
information.

We recommended that cost sharing requirements be made more
explicit. During this reporting period, NSF stated that it will:

          Revise the Proposal and Award Manual (PAM) to require
          that program staff, while developing program
          announcements for unsolicited research awards, consider
          whether the mutuality of interest of the award recipient
          and NSF should require specific levels of cost sharing
          beyond the minimum requirements set forth in the Grant
          Policy Manual (section 640). The program announcement
          will state that where higher levels of cost sharing are
          determined to be appropriate, the requirement will be
          clearly reflected in the award. The PAM will also require
          that program staff consider whether to require cost
          sharing in program solicitations and announcements for
          awards in nonresearch areas.

          Add language to Grants for Research and Education in
          Science and Engineering (GRESE) (currently under
          revision) reminding applicants of NSF cost sharing
          requirements and also indicating that, if a proposal
          budget includes a specific cost sharing level that is a
          significant factor in the determination to fund an award,
          the cost sharing level will be included as a requirement
          in the award.

          Develop a process to ensure that there is a record of any
          decision not to require cost sharing at the level
          specified in the proposal.

          Modify NSF Form 1030, "Proposal Budget," and its
          electronic format to include a line for cost sharing.
          The approved award budget will reflect any required
          specific cost sharing level above the minimum
          requirements of Grant Policy Manual section 640.

          Revise the first sentence of Article 21 (a) of NSF's
          Grant General Conditions to clarify the need for grantees
          to share costs in accordance with any specific
          requirements contained in, or referenced by, the
          applicable program announcement, solicitation, or award
          letter.

          Require that recipients of multi-year awards involving
          cost sharing in excess of $500,000, provide annual
          certifications of the amount of cost sharing completed
          through the certification date.

In a memorandum to all NSF staff, NSF's Acting Director stated:

"We recognize that implementation of these actions will result in
some additional burden to NSF program staff and NSF administrative
components. However, it is important that NSF staff, proposers and
award recipients clearly understand the significance and
implications of cost sharing promises and requirements, especially
as NSF moves increasingly toward establishment of partnership
arrangements involving other institutions and organizations who
participate substantially in the costs of activities funded by NSF.

NSF staff also are reminded of the statutory requirement that each
awardee share in the costs of research projects resulting from
unsolicited proposals, with the proviso that the extent of cost
sharing should reflect the mutuality of interest of the awardee and
NSF in the research."



LEGAL

Attorneys in the OIG provide legal advice on all OIG activities,
including investigations, audits, and oversight of NSF's functions
and programs.  OIG attorneys supported many of the activities that
are described in other sections of this report.

Under section 4 (a)(2) of the Inspector General Act, OIG is
required to review and make recommendations concerning legislation
and regulations that affect NSF and NSF-funded activities.  OIG
attorneys are responsible for conducting these reviews, as well as
general oversight of NSF's legal activities.


Policy Discussions Concerning
Misconduct In Science

As with the discussions in the Oversight section of this report,
these discussions do not preempt or prejudge issues that are within
the jurisdiction of NSF's management, including issues that can
only be decided when NSF's Director and Deputy Director review
particular cases.  OIG scientists or lawyers contributed to all
four policy discussions.

Intent

In Semiannual Report No. 8 (page 22), we discussed the difficulty
that institutions sometimes have in assessing intent in misconduct
cases.  We have received inquiries from members of the scientific
community including the National Conference of Lawyers and
Scientists seeking additional elaboration of  our views on intent.
We will attempt here to clarify what we understand "intent" to mean
and provide some general guidance on how institutions should
address the issue when handling an allegation of misconduct in
science under NSF's misconduct regulation.

The Meaning of Intent

A finding of misconduct in science against a subject requires that
the subject both  (1) committed a bad act and (2) did so with a
minimal level of culpable intent that justifies taking action
against the subject. The "bad act" is sometimes referred to in the
law by the Latin expression "actus reus," while the level of
culpable intent is referred to as the "mens rea."

When we discuss "intent," we are inquiring into the subject's state
of mind. We talk in terms of "levels of intent," which range from
negligent (also known as careless) to reckless (also known as
grossly negligent) to knowing to purposeful (also known as
deliberate or willful). A person acts negligently if, according to
community standards, that person should have acted differently
because a reasonable person in the same circumstances would have
acted differently. A person acts recklessly if, according to
community standards, that person acts in a way that is a serious
deviation from the way a reasonable person would have acted in the
same circumstances.

The knowing and purposeful standards require proof that the subject
knew what he did; however, NSF's misconduct regulation does not
require a finding of knowing or purposeful conduct for a finding of
misconduct in science.

Fundamentally, NSF's definition of misconduct in science proscribes
conduct that is a "serious deviation from accepted practices in
proposing, carrying out, or reporting results from activities
funded by NSF." One of the individuals who drafted this definition
held the opinion that a scientist can be found culpable "only if
the action in question constitutes gross negligence or reckless
disregard for human welfare, the rights of others, or the integrity
of the scientific enterprise." Under NSF's definition, a showing of
recklessness is clearly sufficient for a finding of misconduct in
science. After a finding of misconduct is made, the regulation
requires that NSF assess, in the context of "deciding what actions
are appropriate," whether the misconduct "was deliberate or merely
careless."

In one case that we referred to NSF for adjudication, NSF's Deputy
Director concluded that an individual had committed misconduct in
science on the basis of the institution's conclusion that the
subject's conduct had been reckless. That case, which is discussed
in Semiannual Report No. 7 (page 24), illustrates the difference
between reckless and knowing or purposeful conduct. The subject
submitted a proposal to NSF that contained a substantial amount of
material that was copied from a published article. The subject
explained that he was in the habit of copying text from literature
articles verbatim into notes, without including references to what
he had copied, and then he later used his notes to prepare his
proposals. Thus, in his view, his copying was "unintentional,"
because when he wrote his proposal, he did not know the source of
the material he copied his notes from. The subject's university
found, and NSF agreed, that the subject had exhibited "a reckless
disregard for appropriate procedures of scholarship" and had
"knowingly and repeatedly [engaged] in a pattern of research
note-taking that, given enough time, was inevitably going to
produce precisely the situation that arose with his NSF grant
proposals."

Evidence of Intent

Establishing a subject's level of intent must be accomplished
indirectly, because there is no direct means of probing a person's
thoughts. One can look to any facts and circumstances that might
aid in the determination of state of mind.  This can include what
the subject said and what the subject did and did not do.

The burden of proof must also be kept in mind.  Under NSF's
misconduct in science regulation, all elements of an allegation of
misconduct, including intent, must be proven by a preponderance of
the evidence. Under the preponderance standard, the finder of fact
must conclude, for each element, that it is more likely than not
that the element occurred.We have encountered investigation reports
in which a university panel decided it could not find the requisite
level of intent because it is impossible to know  what someone was
thinking. But certainty is not what is required: what is required
is that it is more likely than not that the subject acted with the
requisite level of intent.

One may infer that a subject is aware of the natural and probable
consequences of acts knowingly done or omitted.  Such an inference
does not, and must not, shift the burden of proof, which is at all
times on the party attempting to establish that misconduct
occurred.

Some acts that can constitute misconduct in science are of a nature
that allows the natural inference that they were done with at least
the subject's knowledge because it is extremely unlikely that the
act could have been committed unwittingly. For example, it is
highly unlikely that two people writing a substantial passage on
the same subject  would use the exact same words. If it is
established that person A wrote a substantial passage in a proposal
that was peer reviewed by person B, and the identical passage
subsequently appears in a proposal submitted by person B, it is
reasonable to infer that person B copied from person A's proposal,
thus establishing the actus reus of plagiarism.  The act of copying
directly from a source into one's own document intrinsically
requires awareness of that act, thus establishing the mens rea of
plagiarism. Either of these natural inferences will be rebutted if,
for example, the evidence shows that person B wrote the disputed
passage before receiving person A's proposal, or that portion of
the proposal had been incorporated by person B from a contribution
that person B believed in good faith had been written by a member
of person B's research group.

The veracity of the subject's proffered explanation of the
subject's actions must be thoroughly tested with regard to both the
alleged act of misconduct (actus reus) and the level of intent
(mens rea). All witnesses who may be able to corroborate (or not)
the subject's story must be interviewed, and pertinent documentary
and other physical evidence must be obtained and analyzed. If the
subject's explanation is impeached, that fact must be taken into
account when assessing the subject's level of intent at the time
the misconduct was committed.

Evidence reviewed for assessing level of intent may also include
evidence of other acts, including other acts of misconduct in
science.

As explained above, a finding of misconduct in science may be based
on reckless action. Thus, a subject may be found to have committed
misconduct even though the subject did not intend to deceive-if it
is determined that the subject acted in a way that was a serious
deviation from the way a reasonable person in the circumstances
would have acted.

Establishing the level of intent is not easy, but it must be
undertaken: an institution dealing with a misconduct case cannot
simply decide the task is impossible and decline to make a
determination about the level of intent--and thus conclude that no
misconduct occurred. As with every other aspect of a case involving
alleged misconduct in science, evidence must be gathered and
weighed about the state of mind of the subject of the allegation.
Decisions about a subject's level of intent must be explained as
thoroughly as the other factual determinations in a misconduct
case.


PUBLIC IDENTIFICATION BY HHS OF INDIVIDUALS
FOUND TO HAVE COMMITTED MISCONDUCT IN SCIENCE

In June 1993, HHS began issuing press releases, publishing in the
Federal Register, and otherwise broadly disseminating the
identities of persons found by HHS to have committed misconduct in
science.  At the same time that it published these names, HHS
provided the first formal public notice that it intends to "publish
the results of all investigations resulting in a finding of
misconduct . . . ." Certain of these individuals have been debarred
by HHS, which is a governmentwide action that, as a matter of
public record, prohibits the individual from receiving federal
funds from any agency. In the other cases, however, HHS apparently
determined that the misconduct did not warrant such governmentwide
action.

There are two issues facing NSF as a result of HHS's action: (1)
What should NSF do if an individual who applies to NSF for a grant
has been found by HHS to have committed misconduct in science but
was not debarred? and (2) Should NSF also actively disseminate the
identities of individuals found to have committed misconduct in
science?

NSF Actions on the Basis
of HHS Findings

Debarment is a governmentwide action: persons who are debarred by
one agency are prohibited from receiving funds, directly or
indirectly, from any federal agency. Thus, the individuals debarred
by HHS for misconduct in science may not apply to NSF for grants.
With regard to the other individuals, however, HHS chose not to
limit their ability to receive federal funds by taking action under
its debarment regulations, which is the only mechanism in place for
agencies to take action with governmentwide applicability. Can NSF
nevertheless take action against applicants for NSF funds who were
found to have committed misconduct by HHS? HHS's findings pertain
only to misconduct related to activities funded by HHS, and NSF's
misconduct in science regulation applies only to misconduct
committed while "proposing, carrying out, or reporting results from
activities funded by NSF." We recommended that NSF consider, in
consultation with its Office of General Counsel, what actions--if
any--NSF should take regarding  the individuals who were the
subjects of these nondebarment HHS misconduct cases.

NSF Dissemination of Names of Individuals Found by NSF to Have
Committed Misconduct in Science

The General Services Administration (GSA) publishes a list of all
individuals debarred by the federal government to all government
agencies and to members of the public upon request. However, the
GSA list contains thousands of names arranged alphabetically and
does not explain the basis for each debarment. Our current policy,
consistent with the views of the National Science Board, is to not
actively disseminate specific information about misconduct cases.
We do not intend to actively publicize, in press releases, the
Federal Register, or otherwise, the identities of individuals found
to have committed misconduct, and we do not recommend that NSF do
so. Misconduct cases handled by this office are discussed in
general terms in our semiannual reports, and additional specific
information on particular cases is available to the public upon
request under the Freedom of Information Act (FOIA).

Under the provisions of FOIA and the Privacy Act, we have not
released identifying information about individuals in misconduct
cases that did not warrant governmentwide debarment. The public
release of a finding of misconduct can itself seriously injure the
reputation of the person found to have committed misconduct. In our
view, all findings of misconduct do not necessarily warrant the
consequences of such public identification. Under the law, we
balance the public interest in obtaining the information against
the individual's interest in privacy. There are cases in which NSF
determines that a person committed misconduct in science, but the
misconduct was not so serious as to warrant prohibiting the person
from obtaining federal funds. In these cases, we do not perceive a
compelling public benefit in knowing the identity of that person
that outweighs the person's right to privacy. The public still has
access to records that fully explain the basis for the agency's
decisions in every misconduct case, which is the overarching
objective of the public information laws. We raised this issue with
members of the Audit and Oversight Committee of the National
Science Board, and they urged us to continue to not release
identifying information in cases that were not sufficiently serious
to warrant debarment.

CLARIFICATION OF LEGAL OBLIGATIONS
OF PIs AND PEER REVIEWERS

As a result of problems we found in misconduct in science cases and
criminal investigations, we recommended that NSF act to ensure that
peer reviewers of NSF proposals and PIs on NSF proposals and awards
are aware of certain legal obligations. The restrictions on the use
and disclosure of information gleaned by reviewers of NSF proposals
need to be clarified. Also, NSF needs to evaluate, and explain,
what it means when it asks PIs what their "level of effort" will be
under a proposed grant.

Maintaining the Integrity of
Confidential Peer Review

The confidentiality of materials submitted for peer review and the
integrity of the peer review process are fundamentally important to
the manner in which the NSF funds science and engineering research
and education.  Serious abuse of the confidential peer review
process can constitute a major breach of the trust that underlies
the scientific enterprise supported by NSF, and, in our view, can
constitute sanctionable misconduct.

Scientists and educators who review proposals from NSF for mail
review are told:

"The Foundation receives proposals in confidence and is responsible
for protecting the confidentiality of their contents. For this
reason, please do not copy, quote, or otherwise use material from
this proposal. If you believe that a colleague can make a
substantial contribution to the review, please consult the NSF
Program Officer before disclosing either the contents of the
proposal or the applicant's name. When you have completed your
review, please destroy the proposal."

Individuals who serve on review panels "must be made aware of the
substance" of the same requirements by NSF program staff. Panel
reviewers are also required to sign a form that sets out the
prohibitions on using or disclosing information from the proposal
without permission, and includes a certification that the reviewer
"will not divulge any confidential information I may become aware
of during my term." In our view, these statements do not adequately
convey the importance of NSF's policy on the confidentiality of the
peer review process.

During several cases, it became apparent to us that reviewers vary
in their understanding of their obligations to maintain the
integrity of the confidential peer review process. For example,
despite the prohibition set out above, some reviewers believe that
they may share proposals with members of their research groups. The
Administrative Conference of the United States recently addressed
this issue in its report "Peer Review in the Award of Discretionary
Grants" and recommended that agencies that rely on peer review
should inform all peer reviewers "in writing of their   . . .
obligations and of the penalties that may flow from a breach of
confidence."

Accordingly, we recommended that NSF ensure that all reviewers are
more clearly informed, in writing, of all of the requirements of
its policy regarding the integrity of the confidential peer review
process and inform reviewers of the possible consequences of
violating that policy.


Clarification of
Level of Effort

The guidance provided by NSF to grant applicants explains that for
NSF grants "NSF agrees to support a specific level of effort for a
specified period of time"; a substantial change in a PI's level of
effort under an award must receive prior approval from NSF.
However, "level of effort" is not defined in the guidance.

During several investigations, we encountered PIs who successfully
received awards under which their apparent total level of effort
substantially exceeded 100 percent. From those cases and informal
discussions, we encountered a wide range of interpretation of the
meaning of level of effort.  Some PIs believe level of effort does
not include time spent teaching or performing administrative
functions.  Some also believe that level of effort does not include
"personal" time--time outside a normal work week--so that such
personal time can, at the individual's option, be used for
additional work.

The information provided on level of effort is important to the
evaluation of research and education proposals by NSF program
officers. NSF must have reasonably accurate information on the
present and proposed time commitments of the PIs and other key
personnel. However, the level of effort information provided by PIs
can only be useful to NSF program officers if program officers and
PIs have a common understanding of what level of effort means.  We
therefore recommended that NSF amend the guidance provided to
applicants to include an unambiguous explanation of the meaning of
level of effort.



OTHER LEGAL ISSUES



New NSF Privacy Act Systems of Records: Under  the Privacy Act,
certain "systems of records" maintained by NSF must be established
in a manner intended by the Act to protect the privacy interests of
those individuals by prohibiting unauthorized disclosures. We
previously identified two such systems of records maintained by NSF
that had not been established pursuant to the Act's requirements.
However, we are unaware of any unauthorized disclosure of these
documents as a result of the records not being part of a proper
system of records under the Act. Based on our recommendation, NSF
acted to establish the systems of records as required by the Act.

Review of OIG Staff Financial Disclosure: NSF rules require
virtually all OIG staff to file Financial Disclosure Report forms
provided by the Office of Government Ethics (OGE). In the past, the
forms filed by OIG staff were reviewed only by NSF's OGC. Our peer
reviewers from the Executive Council for Integrity and Efficiency
recommended that the conflicts official for the Office of Inspector
General review all such forms from OIG staff for possible conflicts
of interests, before the forms are reviewed by OGC. In this
reporting period, in cooperation with OGC, we implemented a process
of review by the Counsel to the Inspector General of the forms
filed by OIG staff.

Touhy Regulation: In a 1951 case, United States ex relatione Touhy
vs. Ragen, the Supreme Court upheld the authority of an agency to
place restrictions on the disclosure of official agency information
in response to a subpoena. We recommended that NSF adopt a "Touhy"
regulation to establish procedures for NSF's response to subpoenas
or other demands for current and former NSF employees to testify
about, or produce records concerning, NSF matters in private
litigation or other proceedings in which the United States is not
a party.  The regulation will prohibit NSF employees and former
employees from complying with those demands without the permission
of the Director or the Director's delegate; OIG employees and
former employees will be prohibited from complying with such
demands without the permission of the Inspector General or the
Inspector General's delegate. This regulation will minimize the
disruption of official duties caused by compliance with these
demands and ensure that NSF has control over the release of
official information.


_________________________________________________________________

Progress on Financial Disclosure Policy for PIs.  In Semiannual
Report No. 8 (page 33), we discussed a revised NSF system for
identifying potential conflicts of interest on the part of PIs who
apply for NSF grants.  The revised policy would require that
investigators' financial interests by disclosed to universities
rather than NSF, provided the PI certified on each proposal that
all financial interests had been disclosed to the university and
that the university certified that the disclosed financial interest
had been reviewed and any conflicts of interest resolved.  This
rule had been forwarded to OMB and OSTP for comment and clearance.
In the meantime, the National Institutes of Health (NIH) has been
developing its own policy on investigative conflicts.  We consider
it to be a helpful development that, late in this reporting period,
OMB and OSTP requested that NSF and NIH work together to establish
consistent policies.

_________________________________________________________________



SIGNIFICANT AUDIT RECOMMENDATIONS
FROM PREVIOUS SEMIANNUAL REPORTS

We are responsible for reporting to Congress and following up on
the resolution of audit recommendations.  From April 1, 1993,
through September 30, 1993, we have resolved 5 reports with
significant audit recommendations.  These reports were noted in
previous OIG Semiannual Reports 4 through 7.


Grantee Has
Questioned Costs

Period First Reported:  April 1, 1991 - September 30, 1991

NSF awarded $489,369 to a small business to develop and publish a
science and mathematics newsletter for elementary school teachers.
The grantee claimed $220,000.  We questioned $115,887 because the
grantee did not develop an indirect cost proposal, and claimed
indirect costs that exceeded allowable amounts, charged direct and
consultant salaries that were not authorized or supported by
written agreements, claimed costs in excess of recorded costs, and
did not remit interest to NSF.

NSF submitted an agreement for closure to the grantee.  The grantee
signed the agreement during this reporting period.  The agreement
disallowed $47,137.


Joint Oceanographic
Institutions

Period First Reported:  April 1, 1992 - September 30, 1992

In audits of approximately $134 million provided for the Ocean
Drilling Program, we questioned $342,000.  These findings resulted
from poor practices in the area of travel, consultants' costs, and
audit requirements for subcontractors and grantees, and inattention
to the requirements for an internal evaluation of the Ocean
Drilling Program.  The Joint Oceanographic Institutions is
conducting its review every 3 years instead of every 2 years, as
required by the contract.  Many of the findings resulted from a
lack of documentation and/or NSF approvals for funds expended.

The Joint Oceanographic Institutions met with NSF and provided
additional documentation to support the claimed costs.  NSF
determined that $41,732 was disallowed.


University Corporation
for Atmospheric Research

Period First Reported:  April 1, 1992 - September 30, 1992

In a review of the University Corporation for Atmospheric Research
(UCAR) proposal for indirect cost rates to be used for federal
grants and contracts we found a significant number of issues that
needed to be addressed by NSF's program and award management
officials.  We found that items were included in the indirect cost
pool that did not belong in those accounts, depreciation had been
overstated because UCAR charged depreciation of federally funded
buildings and equipment, occupancy rates included unallowable
interest expense, and indirect costs recovery variances from prior
years were not properly recognized.

NSF and UCAR representatives resolved the outstanding issues and
agreed to financial system changes and new indirect cost rates.


Mathematics Association Claims
Indirect Costs in Excess of Costs Incurred

Period First Reported:  April 1, 1992 - September 30, 1992

An audit of $704,653 of claimed costs from a Mathematics
Association questioned $70,215.  We questioned these costs because
the indirect costs claimed exceeded actual rates.

During audit resolution and development of acceptable indirect cost
rates, we determined that the Association's accounting system was
inadequate to track the data required for indirect cost issues.
After NSF received additional documentation from the grantee, NSF
determined that the total disallowance was $7,066.


Museum Claims
Unsupported Costs

Period First Reported:  October 1, 1992 - March 31, 1993

NSF awarded a $450,000 grant to a museum to support a teachers'
intern program.  We questioned $165,679 in expenditures and $11,354
in interest due to NSF.  The questioned costs resulted from claimed
indirect costs that exceeded actual indirect costs; claimed
expenses that were not anticipated in the original grant budget;
and claimed costs that had been reimbursed under a Department of
Education grant.  In addition, we found museum employees did not:
limit advances from federal funds to current needs, identify and
segregate unallowable costs in accounting records, have written
accounting procedures, or maintain records to support cost sharing
requirements.  NSF disallowed $59,823.



REPORTS  WITH  OUTSTANDING
MANAGEMENT  DECISIONS


No management decisions have been made for the following four
reports.  These reports have questioned costs that have not been
resolved. The Division of Contract Policy Office  is tasked with
resolving recommendations in external audit reports.  During this
reporting period, the Division of Contract Policy Office  resolved
23 reports that had questioned costs and were over 6 months old or
that would have reached 6 months old during this reporting period.

*****************************************************************

Management Decision:  Management's evaluation of audit findings
and recommendations and issuance of a final decision concerning
management's response to such findings and recommendations.

*****************************************************************



Report                                            Date Report
Number              Title                              Issued


Reports with questioned costs:


91-1038        Prism Productions                  12/21/90

93-1024        Laser Genics Corporation           03/16/93

93-1025        Mathematical Association
                of America                        03/18/93

93-1026        Science Service, Inc.              03/18/93




Commercial Firm Earns
Interest on NSF Funds

Period First Reported: October 1, 1990 - March 31, 1991

NSF awarded two grants totaling $2,225,496 to a privately owned,
for-profit corporation that provides technical and scientific
information to commercial television stations.  The corporation
claimed $2,113,620, and we questioned $410,338.

The questioned costs resulted from unsupported salary costs being
charged to the grant, invoices supporting expenditures not being
available, and indirect costs being charged at a rate higher than
the actual rate of the maximum provisional rate.  We recommended
that an additional $21,175 of interest earned on NSF advances be
returned to NSF.

During this reporting period, NSF continued to receive information
from the grantee in an attempt to resolve the issues in this
report.  Resolution is expected during the next reporting period.


SBIR Grantee Claims
Excess Indirect Costs

Period First Reported: October 1, 1992 - March 31, 1993

NSF awarded a $230,206 grant to an organization to support a
process of growing crystal fibers.  We questioned $21,220 because
claimed indirect costs exceeded allowable indirect costs, claimed
costs exceeded recorded costs, and a grant charge was made without
a supporting invoice.  The Division of Contracts, Policy and
Oversight is currently finalizing indirect cost rates for the award
period.  Resolution is expected during the next reporting period.


Association Lacks
Adequate Records

Period First Reported: October 1, 1992 - March 31, 1993

NSF awarded an education association seven grants, totaling
$1,585,701, to create instructional programs for math teachers.  We
questioned $180,449 because salaries and fringe benefits were not
supported by time and attendance records; consulting charges were
not supported by written agreements or invoices for services
rendered; source documentation was not maintained for direct costs;
and the rates used to claim indirect costs exceeded final indirect
cost rates.  We recommended that the grantee require that written
consulting agreements be submitted to support consulting charges.
The Division of Contracts, Policy and Oversight requested that the
NSF program office review the project's accomplishments to
determine whether the value was received for the undocumented
expenditures.  Resolution is progressing and should be completed
before December 30, 1993.


Nonprofit's Accounting
System Was Inadequate

Period First Reported: October 1, 1992 - March 31, 1993

NSF awarded two grants, totaling $150,000, to a nonprofit
organization to support publication of annual directories of
scientific training programs.  We questioned $4,070.  Both NSF
grants had been charged to the same account.  As a result, we could
not identify which costs were applicable to each award, reconcile
the amounts reported on the Federal Cash Transactions Report with
the account ledgers, or determine the exact amount of income
applicable to each award.

We recommended that the grantee account for costs by grant,
establish records that compare budgeted amounts for the grants with
the amounts actually spent, and support payroll expenses with
personnel activity reports or an alternative system.  The Division
of Contracts, Policy and Oversight conducted a site visit and found
that significant self-funded expenditures could be used to offset
the questioned costs.  Resolution of compliance and internal
control issues is expected before October 30, 1993.



Agency Refusal To Provide
Information Or Assistance


During this reporting period, there were no reports made to the
National Science Board of instances where information or
assistance, requested under section 5(a)(5) of the Inspector
General Act of 1978, as amended, was unreasonably refused or not
provided.



Significant Management Decisions
That Were Revised


No significant management decisions were revised during the
reporting period.




Inspector General's Disagreement With
Significant Management Decisions


The Inspector General has no disagreement with significant
management decisions made during this  reporting period.



LIST OF
REPORTS


We issued the following audit reports and, where applicable, the
total dollar
value of questioned costs (including a separate category for the
dollar value
of unsupported costs) is listed for each report.

******************************************************************

Unsupported Cost: A cost the OIG has questioned because of a lack
of adequate documentation at the time of the audit.

*****************************************************************


NSF and CPA Performed Audits


                         Date Report    Questioned     Unsupported
Number    Grantee             Issued         Costs           Costs


93-1035   Cleveland
          Education Fund      04/22/93       197,293             0

93-1036   Rose Plastics &
          Machinery, Inc.     04/22/93        23,613             0

93-1037   Advance Refractory
          Technologies        04/22/93           487             0

93-1038   Moltech
          Corporation         04/22/93         7,742             0

93-1039   Queues Enforth
          Development Inc.    04/23/93        11,288             0

93-1040   St. Luke's-Rooservelt
          Institute for Health
          Sciences            04/23/93           373             0

93-1041   Division of Chemical
          Education, Department of
          Chemical Education  04/23/93           768            70

93-1042   Gordon Research
          Conferences, Inc.   04/23/93        12,360         1,133

93-1043   Nysernet, Inc.      05/03/93        19,372         1,206

93-1044   Massachusetts General
          Hospital            05/03/93        16,911           528

93-1045   Cosmic Voyage
          Project             05/28/93        80,591        80,000

93-1046   Neogen
          Corporation         05/28/93        44,932        30,622

93-1047   University of Alaska
          at Fairbanks        06/22/93             0             0

93-1048   Unicorn Projects,
          Inc.                06/22/93        55,319         1,610

93-1049   George Mason
          University          06/22/93        33,052        27,521

93-1050   Museum of Science
          and Industry        06/08/93        29,389         1,483

93-1051   Mount Desert Island
          Biological
          Laboratories        06/25/93        15,495         4,528

93-1052   Yale Southern
          Observatory         06/25/93        22,006             0

93-1053   Universal Hi-Tech
          Development         07/14/93        11,970             0

93-1054   Society of Hispanic
          Professional Engineers
          Foundation          08/17/93        33,596             0

93-1055   The Ecological Society
          of America          08/26/93        50,285        50,285

93-1056   Minnesota Environmental
          Sciences
          Foundation          09/07/93         6,573         6,573

93-1057   Cleveland Clinic
          Foundation          09/07/93        25,241             0




INTERNAL AUDITS



                         Date Report    Questioned     Unsupported
Number    Grantee             Issued         Costs           Costs


93-2105   Overseas Drilling
          Program             05/18/93            0              0

93-2106   International
          Program on
          Overseas Drilling   05/18/93            0              0

93-2107   Chief Financial
          Officer's Act       06/30/93            0              0

93-2108   Grant Proposal
          Processing Time     09/30/93            0              0




NSF
COGNIZANT
AUDITS



                         Date Report    Questioned     Unsupported
Number    Grantee             Issued         Costs           Costs


93-4044   American
          Mathematical
          Society             05/24/93        6,540           6,477

93-4045   St. Louis Science
          Center              05/28/93            0              0

93-4046   Hands On Science
          Outreach            05/28/93            0              0

93-4047   Institution of Electrical
          and Electronics
          Engineers           05/28/93            0              0

93-4048   Computing Research
          Association         05/28/93            0              0

93-4049   IRIS Consortium     05/28/93        6,526          6,217

93-4050   UCAR                06/25/93            0              0

93-4051   Mathematical
          Association
          of America          07/15/93        1,617          1,617

93-4052   Missouri Botanical
          Garden              09/08/93        7,233              0





OTHER
FEDERAL
AUDITS




                         Date Report    Questioned     Unsupported
Number    Grantee             Issued         Costs           Costs


93-5083   Woods Hole
          Oceanographic
          Institute           06/25/93            0              0

93-5084   Woods Hole
          Oceanographic
          Institute           06/25/93            0              0

93-5085   Woods Hole
          Oceanographic
          Institute           06/25/93            0              0

93-5086   Computer Sciences
          Corporation         06/25/93            0              0

93-5087   Computer Sciences
          Corporation         06/25/93            0              0

93-5088   Epitaxx, Inc.       06/25/93            0              0

93-5089   MIT                 06/25/93            0              0

93-5090   University of
          Arizona             06/25/93            0              0

93-5091   Amarillo College    06/25/93            0              0

93-5092   SRI International   06/25/93            0              0

93-5093   Bend Research,
          Inc.                06/25/93            0              0

93-5094   Polytechnic
          University          06/25/93            0              0

93-5095   Brown
          University          06/25/93            0              0

93-5096   Miami
          University          06/25/93            0              0

93-5097   Beloit College      06/25/93            0              0

93-5098   Southwestern Oregon
          Community College   06/25/93            0              0

93-5099   Oklahoma State University
          Education & Research
          Foundation          06/25/93            0              0

93-5100   Epitaxx, Inc.       07/14/93            0              0

93-5101   Carnegie Mellon
          University          07/14/93            0              0

93-5102   Mathematical Policy
          Research            07/14/93            0              0

93-5103   Computer Sciences
          Corporation         07/14/93            0              0

93-5104   University of
          Hawaii              07/14/93       30,642              0

93-5105   University of
          Hawaii              07/14/93       17,398              0

93-5106   University of
          Rochester           07/14/93            0              0

93-5107   KMS Fusion, Inc.    07/14/93            0              0

93-5108   KMS Fusion, Inc.    07/14/93            0              0

93-5109   University of
          Notre Dame          07/14/93            0              0

93-5110   Stanford
          University          07/14/93            0              0

93-5111   Stanford
          University          07/14/93            0              0

93-5112   Lowell
          Observatory         07/14/93            0              0

93-5113   Carnegie Mellon University
          & Software Engineering
          Institute           07/14/93            0              0

93-5114   Millsaps College    07/14/93            0              0

93-5115   Southwest Missouri
          State University    07/14/93            0              0

93-5116   John Carroll
          University          07/14/93            0              0

93-5117   University of
          Louisville          07/14/93            0              0

93-5118   Murray State
          University          07/14/93            0              0

93-5119   Mount St. Mary's
          College             07/14/93            0              0

93-5120   Lake City Community
          College             07/14/93            0              0

93-5121   San Jose State
          University
          Foundation          07/14/93            0              0

93-5122   Peru State
          College             07/14/93            0              0

93-5123   State of
          Washington          07/30/93            0              0

93-5124   Coast Community
          College             07/30/93            0              0

93-5125   Northland College   07/30/93            0              0

93-5126   California State
          University
          -Hayward Foundation 07/30/93            0              0

93-5127   Mississippi State
          University          07/30/93            0              0

93-5128   State of
          Louisiana           07/30/93            0              0

93-5129   Jefferson State
          Community College   07/30/93            0              0

93-5130   George Washington
          University          07/30/93            0              0

93-5131   New Mexico Highlands
          University          07/30/93            0              0

93-5132   Hornet Foundation,
          Inc.                07/30/93            0              0

93-5133   Macalester
          College             07/30/93            0              0

93-5134   Rochester Institute
          of Technology       07/30/93            0              0

93-5135   Eckerd College      07/30/93            0              0

93-5136   Duke University     07/30/93            0              0

93-5137   Bradley University  07/30/93            0              0

93-5138   Concordia Luthern
          College             07/30/93            0              0

93-5139   San Jose/Evergreen
          Community College
          District            07/30/93            0              0

93-5140   Pima Community College
          District            07/30/93            0              0

93-5141   Ohio University     07/30/93            0              0

93-5142   Clemson University  07/30/93            0              0

93-5143   Valparaiso
          University          07/30/93            0              0

93-5144   Western Kentucky
          University          07/30/93            0              0

93-5145   Council for Basic
          Education           07/30/93            0              0

93-5146   Woods Hole Oceanographic
          Institute           07/30/93            0              0

93-5147   Brown University    08/03/93            0              0

93-5148   Brown University    08/03/93            0              0

93-5149   Cornell University  08/03/93            0              0

93-5150   Cornell University  08/03/93            0              0

93-5151   University of
          Rochester           08/25/93            0              0

93-5152   Virginia Institute
          of Marine Science   08/25/93            0              0

93-5153   Virginia Institute
          of Marine Science   08/25/93            0              0

93-5154   Foster-Miller,
          Inc.                08/25/93            0              0

93-5155   Brown University    08/25/93            0              0

93-5156   Computer Sciences
          Corporation         08/25/93            0              0

93-5157   Computer Sciences
          Corporation         08/25/93            0              0

93-5158   New Mexico State
          University          08/25/93            0              0

93-5159   New Mexico State
          University          08/25/93            0              0

93-5160   University of
          Notre Dame          08/25/93            0              0

93-5161   New Mexico
          Institute of Mining
          and Technology      08/25/93            0              0

93-5162   New Mexico
          Institute of Mining
          and Technology      08/25/93            0              0

93-5163   New Mexico State
          University          08/25/93            0              0

93-5164   New Mexico
          Institute of Mining
          and Technology      08/25/93            0              0

93-5165   Smithsonian
          Astrophysical
          Observatory         08/25/93            0              0

93-5166   Smithsonian
          Astrophysical
          Observatory         08/25/93            0              0

93-5167   Stanford
          University          08/25/93            0              0

93-5168   Cornell
          University          08/25/93            0              0

93-5169   Columbia
          University          08/25/93            0              0

93-5170   Massachusetts Institute
          of Technology       08/25/93            0              0

93-5171   Polytechnic
          University          08/25/93            0              0

93-5172   Cornell
          University          08/25/93            0              0

93-5173   California Institute
          of Technology       08/25/93            0              0

93-5174   Charles Stark Draper
          Laboratory, Inc.    08/25/93            0              0

93-5175   Woods Hole Oceanographic
          Institute           08/25/93            0              0

93-5176   Woods Hole
          Oceanographic
          Institute           08/25/93            0              0

93-5177   Woods Hole
          Oceanographic
          Institute           08/25/93            0              0

93-5178   Woods Hole
          Oceanographic
          Institute           08/25/93            0              0

93-5179   Syracuse
          University          08/25/93            0              0

93-5180   SRI
          International       08/25/93            0              0

93-5181   Computer Sciences
          Corporation         08/25/93            0              0

93-5182   Computer Sciences
          Corporation         08/25/93            0              0

93-5183   Computer Sciences
          Corporation         08/25/93            0              0

93-5184   Computer Sciences
          Corporation         08/25/93            0              0

93-5185   Columbia
          University          08/26/93            0              0

93-5186   University of
          San Diego           08/26/93            0              0

93-5187   State of Montana    08/26/93        4,746              0

93-5188   State of Georgia    08/26/93          956              0

93-5189   State of Colorado   08/26/93            0              0

93-5190   American Association
          of State Colleges
          & Universities      08/27/93            0              0

93-5191   University of
          Chicago             08/27/93           22              0

93-5192   State of Utah       08/27/93            0              0

93-5193   State of
          Massachusetts       09/14/93            0              0

93-5194   Computer Sciences
          Corporation         09/14/93            0              0

93-5195   Stanford
          University          09/14/93            0              0

93-5196   New Mexico State
          University          09/15/93            0              0

93-5197   Denison University  09/15/93            0              0

93-5198   Oakland University  09/15/93            0              0

93-5199   Teachers Academy for
          Mathematics and
          Science ('91)       09/15/93            0              0

93-5200   Teachers Academy for
          Mathematics and
          Science ('92)       09/15/93            0              0

93-5201   Jackson State
          University          09/15/93            0              0

93-5202   Pennsylvania State
          University          09/16/93            0              0





OVERSIGHT



                         Date Report    Questioned     Unsupported
Number    Grantee             Issued         Costs           Costs



93-3209   Conflicts-of-Interests
          Reviews: Volunteers
          Entering and Leaving,
          March 1993          04/28/93            0              0

93-3210   Conflicts-of-Interests
          Reviews: NSF Staff and
          Rotators Entering
          and Leaving,
          March 1993          04/30/93            0              0

93-3211   Conflicts-of-Interests
          Reviews: Intergovernmental
          Personnel Act Assignees
          Entering and Leaving,
          March 1993          04/30/93            0              0

93-3212   Conflicts-of-Interests
          Reviews: NSF Staff and
          Rotators Entering
          and Leaving,
          April 1993          05/27/93            0              0

93-3213   Conflicts-of-Interests
          Reviews: Volunteers
          Entering and Leaving,
          April 1993          05/05/93            0              0


93-3214   Committee of Visitors:
          Status of Reviews:
          2nd Quarter
          FY 1993             05/07/93            0              0

93-3215   Conflicts-of-Interests
          Reviews: Intergovernmental
          Personnel Act Assignees
          Entering and Leaving,
          April 1993          07/12/93            0              0

93-3216   Conflicts-of-Interests
          Reviews: NSF Staff and
          Rotators Entering
          and Leaving,
          May 1993            07/15/93            0              0

93-3217   Conflicts-of-Interests
          Reviews: Intergovernmental
          Personnel Act Assignees
          Entering and Leaving,
          May 1993            08/04/93            0              0

93-3218   Conflicts-of-Interests
          Reviews: Volunteers
          Entering and Leaving,
          May 1993            06/28/93            0              0

93-3219   Oversight Review: Review
          of Conflict-of-Interest
          Form for Advisory
          Groups              04/20/93            0              0

93-3220   Conflicts-of-Interests
          Reviews: NSF Staff and
          Rotators Entering
          and Leaving,
          June 1993           08/05/93            0              0

93-3221   Conflicts-of-Interests
          Reviews:  Intergovernmental
          Personnel Act Assignees
          Entering and Leaving,
          June 1993           08/05/93            0              0

93-3222   Conflicts-of-Interests
          Reviews: Volunteers
          Entering and Leaving,
          June 1993           07/29/93            0              0

93-3223   Committee of Visitors:
          Status of Reviews:
          3rd Quarter
          FY 1993             07/23/93            0              0

93-3224   Conflicts-of-Interests
          Reviews: Intergovernmental
          Personnel Act Assignees
          Entering and Leaving,
          July 1993           08/06/93            0              0

93-3225   Conflicts-of-Interests
          Reviews: Volunteers
          Entering and Leaving,
          July 1993           08/09/93            0              0

93-3226   Conflicts-of-Interests
          Reviews: NSF Staff and
          Rotators Entering
          and Leaving,
          July 1993           08/13/93            0              0

93-3227   Oversight Review:
          Proposal Actions:
          Directorate for Education
          & Human Resources
          1st & 2nd Quarters
          FY 1993             08/08/93            0              0

93-3228   Conflicts-of-Interests
          Reviews:  NSF Staff
          and Rotators Entering
          and Leaving,
          August 1993         09/14/93            0              0

93-3229   Conflicts-of-Interests
          Reviews: Volunteers
          Entering and Leaving,
          August 1993,        09/21/93            0              0






Statistical Information
Required by the
Inspector General
Act of 1978,
as Amended


Table I.   Audit Reports Issued With Questioned Costs


                                     Questioned     Unsupported
                         Number           Costs           Costs


A.   For which no management
     decision has been
     made by the
     commencement of the
     reporting period.       28       1,716,494         179,161

B.   Which were issued
     during the
     reporting period.       40       2,429,354       1,483,218

C.   Adjustments to questioned
     costs resulting from
     resolution activities.   0               0               0

Subtotals of (A+B+C)         68       4,145,848       1,662,379

D.   For which a management
     decision was made
     during the
     reporting period.       31       1,084,891          43,127

          (i) dollar value
          of disallowed
          costs               0         385,911             N/A

          (ii) dollar value of
          costs not
          disallowed          0         698,980             N/A


E.   For which no management
     decision has been made by
     the end of the reporting
     period.                 37       3,060,957       1,619,252

Report for which no management
decision was made within
6 months of issuance.         4         616,077         144,342




Inspector
General
Reports


*****************************************************************

Funds to be Put to Better Use:  Funds the OIG has identified in an
audit recommendation that could be used more efficiently by
reducing outlays, deobligating program or operational funds,
avoiding unnecessary expenditures, or taking other efficiency
measures.

*****************************************************************


Table II.  Audit Reports Issued With Recommendations For Better Use
of Funds



                                             Number         Dollar
                                                            Value

A.   For which no management decision
     has been made by the commencement
     of the reporting period.                     0            0

B.   Which were issued during the
     reporting period.                            1      300,950

Subtotals of A & B                                1      300,950

C.   For which a management decision
     was made during the reporting period.        1      300,950

          (i)  dollar value of recommendations
          that were agreed to by management       1      300,950

               based on proposed
               management action                  1      300,950

               based on proposed
               legislative action                 0            0

          (ii)  dollar value of recommendations
          that were not agreed to by management   0            0

D.   For which no management decision has been
     made by the end of the reporting period.     0            0

Report for which no management decision was
made within 6 months of issuance.                 0            0



Prepared by:

Office of Inspector General
National Science Foundation

For additional copies,
write:

Office of Inspector General
4201 Wilson Boulevard
Arlington, VA  22230

For additional information,
call:

Audit                                   (703) 306-2001

Investigations                          (703) 306-2004

Oversight Activities
(including misconduct in science
and inspections)                        (703) 306-2006

Legal Issues                            (703) 306-2100

Electronic Mail:                           oig@nsf.gov

Telephone Hotline:                      (703) 306-2004


